<html>
<title> - [H.A.S.C. No. 115-70] -The Military Posture and Security Challenges In The Indo-Asia-Pacific Region</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                              
                         [H.A.S.C. No. 115-70]

                        THE MILITARY POSTURE AND

                       SECURITY CHALLENGES IN THE

                        INDO-ASIA-PACIFIC REGION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-993                       WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a> 




                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                  Kim Lehn, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Harris, ADM Harry B., Jr., USN, Commander, U.S. Pacific Command..     3

                                APPENDIX

Prepared Statements:

    Harris, ADM Harry B., Jr.....................................    53
    Smith, Hon. Adam.............................................    51
    Thornberry, Hon. William M. ``Mac''..........................    49

Documents Submitted for the Record:

    Prepared statement of GEN Vincent K. Brooks, Commander, 
      United Nations Comand; Republic of Korea and United States 
      Combined Forces Command; and United States Forces Korea....   113
    Letter requesting correction for the record to GEN Brooks' 
      prepared statement.........................................   129

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   133
    Mr. Thornberry...............................................   133
 
. 
 THE MILITARY POSTURE AND SECURITY CHALLENGES IN THE INDO-ASIA-PACIFIC 
                                 REGION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 14, 2018.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    With us today is Admiral Harry Harris, the commander of 
United States Pacific Command [PACOM].
    As Admiral Harris nears the end of his military service, I 
want to first thank him for that service and for the insights 
and perspective he has shared with us both here in Washington 
and as Members have traveled throughout the PACOM region.
    Remarkably, 40 years of service to our Nation is not enough 
for Admiral Harris. Last week, the President announced his 
intention to nominate him as our Ambassador to Australia.
    This hearing comes at an opportune time. Last week, we 
heard Secretary Mattis and General Selva testify on the new 
National Defense Strategy and on the Nuclear Posture Review. 
Also last week, Congress passed and the President signed into 
law legislation that raised the spending caps so that repair of 
our readiness shortfalls can begin in earnest.
    Admiral Harris has had to grapple with that full range of 
issues. In the Indo-Asia-Pacific region, the United States 
faces a near-term belligerent threat armed with nuclear weapons 
and also a longer term strategic competitor. In fact, four of 
the five key security challenges--China, Russia, North Korea, 
and terrorism--reside in the PACOM area of responsibility. 
Unfortunately, the region has also seen a tragic loss of life 
of American service members in naval and aircraft accidents and 
has felt some of the consequences of our inadequate defense 
budgets.
    Despite North Korea's recent charm offensive at the Olympic 
games, the threat posed to U.S. service members, our allies, 
and the American homeland has not diminished. We have an urgent 
need to ensure that we are ready for whatever course that 
situation may take.
    The challenge posed by China has also not lessened. China 
is rapidly transforming its military, continuing to militarize 
artificial islands in the South China Sea, and expanding its 
presence through political influence campaigns and economic 
coercion. According to the National Defense Strategy, quote, 
``China is leveraging military modernization, influence 
operations, and predatory economics to coerce neighboring 
countries to reorder the Indo-Pacific region to their 
advantage,'' end quote.
    Critical to meeting all of the challenges to the region is 
our relationship with our allies and also with countries with 
whom we share interests. The fiscal year 2018 National Defense 
Authorization Act includes more for training and exercises with 
partners, as well as establishing the Indo-Asia-Pacific 
Stability Initiative, which in part is designed to show our 
allies that we stand by them with more than just words.
    We all look forward to Admiral Harris's candid assessment 
of these and other issues, but first let me yield to the 
ranking member.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 49.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    I want to join you in thanking Admiral Harris for his 
service to our country in the military. He has served honorably 
and for a long time, is doing a great job in his current job.
    And, also, congratulations on your appointment as the 
Ambassador to Australia. At least as we discussed prior, you 
have experience with the confirmation process--a different 
committee, I understand, but it is at least good to understand 
what you are getting into. And I wish you the best of luck in 
that. And thank you for your great work in the Pacific.
    Other than that, I think the chairman did a great summary 
of the challenges that we face out there. I would only 
emphasize one point, and that is the last one that he made, and 
that is the importance of partnerships and our allies.
    There are a lot of countries in the Pacific region in play, 
a lot of countries that could be crucial allies to us as we try 
to stop China from being overly aggressive towards their 
neighbors and pushing other folks out. And building those 
alliances is critical.
    And I know one of the things that really helps that is the 
presence of our military and, in particular, the presence of 
our Navy, the ability to do joint exercises, to do port calls, 
to build relationships with those countries. Obviously, it is 
about more than that, but the more friends we have in Asia, I 
think the better able we are going to be able to nudge China in 
a more positive direction.
    There is no question China is going to be a major player in 
Asia, but is it going to be for good or is it going to be for 
ill? And I think that has a lot to do with how strong their 
neighbors are in pushing back against some of the things that 
China is doing that are problematic.
    So I appreciate your hard work in building those 
relationships and look forward to hearing more about them and 
more about our challenges in the Pacific. And, again, I thank 
you very much for your service.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]
    The Chairman. I thank the ranking member.
    Let me just remind members that immediately upon conclusion 
of this open hearing we will regroup in classified session 
upstairs with Admiral Harris.
    Admiral, thank you again for being here. Without objection, 
your full written statement will be made part of the record.
    And, without objection, we have a written statement from 
General Brooks, our commander in Korea, which will also be made 
part of the record.
    [The prepared statement of General Brooks can be found in 
the Appendix on page 113.]
    The Chairman. The floor is yours.

  STATEMENT OF ADM HARRY B. HARRIS, JR., USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Harris. Thank you, Chairman Thornberry, Ranking 
Member Smith, and distinguished members. It is an honor for me 
to appear again before this committee for what is likely my 
last posture hearing to you all.
    I do regret that I am not here with my usual testimony 
battle buddy, General Vince Brooks from Korea, but I think you 
will all agree that he is where he is needed right now, on the 
Korean Peninsula.
    There are many things to talk about since my last testimony 
10 months ago, but I want to start by thanking the Congress for 
your actions last week. I am grateful for the bipartisan effort 
to raise the budget caps for fiscal year 2018 and 2019, and I 
am optimistic that Congress will resource the fiscal year 2018 
NDAA [National Defense Authorization Act] in the coming weeks.
    I and many others have regularly highlighted the negative 
effects that sequestration and the Budget Control Act have 
leveled against the military, so I would further ask the 
Congress to make these bipartisan measures permanent and end 
sequestration for good.
    One of the principal problems that we face in the region is 
overcoming the perception that the United States is a declining 
power. A fully resourced defense budget leading into long-term 
budget stability will send a strong signal to our allies, 
partners, and all potential adversaries that the U.S. is fully 
committed to preserving a free and open order in the Indo-
Pacific.
    As the PACOM commander, I have the tremendous honor of 
leading approximately 375,000 soldiers, sailors, Marines, 
airmen, coastguardsmen, and Department of Defense civilians 
standing watch for the largest and most diverse geographic 
command. These men and women, as well as their families, fill 
me with pride in their hard work and devotion to duty, and I am 
humbled to serve alongside them.
    The U.S. has an enduring national interest in the Indo-
Pacific. As I stated last year, I believe America's security 
and economic prosperity are indelibly linked to this critical 
region, which remains at a precarious crossroads where tangible 
opportunity meets significant challenge. Here, we face a 
security environment more complex and volatile than we have 
experienced in recent memory.
    Rogue regimes, like the Democratic People's Republic of 
Korea, persist in taking outlaw actions that threaten regional 
and even global stability. This past year has seen rapid and 
comprehensive improvement in the DPRK's ballistic missile and 
nuclear capabilities despite broad international condemnation 
and the imposition of additional United Nations Security 
Council resolutions. This includes the detonation of its 
largest nuclear device, first-ever launches of two different 
intercontinental ballistic missiles, and six launches of an 
intermediate-range ballistic missile, all of which Pyongyang 
emphatically states will target the United States and Guam.
    Now, while some might dispute both the reliability and 
quantity of the North's strategic weapons, it is indisputable 
that KJU [Kim Jong-un] is rapidly closing the gap between 
rhetoric and capability. The Republic of Korea and Japan have 
been living under the shadow of the DPRK's threats for years, 
and now that shadow looms over the American homeland.
    PACOM and the entire DOD [Department of Defense] fully 
support the President's maximum-pressure campaign led by the 
State Department. Nobody seeks or desires conflict with North 
Korea, but the U.S. and our allies must prepare for the full 
range of contingency responses.
    Meanwhile, China is leveraging military modernization, 
influence operations, and predatory economics to coerce 
neighboring countries to reorder the Indo-Pacific to their 
advantage. While some view China's actions in the East and 
South China Seas as opportunistic, I do not. I view them as 
coordinated, methodical, and strategic, using their military 
and economic power to erode the free and open international 
order.
    China's aggression in the South China Sea moves along 
unabated despite the Permanent Court of Arbitration's tribunal 
ruling that invalidated China's Nine-Dash Line claim, an 
unprecedented land reclamation, in 2016. And China is 
attempting to assert de facto sovereignty over disputed 
maritime features by further militarizing its manmade bases to 
this very day.
    China's impressive military buildup could soon challenge 
the United States across almost every domain. Key advancements 
include fielding significant improvements in missile systems, 
developing fifth-generation fighter aircraft capabilities, and 
growing the size and capability of the Chinese Navy, to include 
their first overseas base in the Port of Djibouti. They are 
also heavily investing in the next wave of military 
technologies, including hypersonic missiles, advanced space and 
cyber capabilities, and artificial intelligence. If the U.S. 
does not keep pace, PACOM will struggle to compete with the 
People's Liberation Army on future battlefields.
    China's ongoing military buildup, advancement, and 
modernization are core elements of their strategy to supplant 
the United States as the security partner of choice for 
countries in the Indo-Pacific, but China also holds clear 
global ambitions.
    But don't take my word for it. Just listen to what China 
itself says. At the 19th Party Congress, President Xi stated he 
wanted China to develop a world-class military and become a 
global leader in terms of composite national strength and 
international influence.
    Ladies and gentlemen, China's intent is crystal clear. We 
ignore it at our peril.
    These types of aspirational goals could be appropriate for 
a nation of China's stature, but judging by China's regional 
behavior, I am concerned that China will now work to undermine 
the rules-based international order, not just in the Indo-
Pacific but on a global scale, as China expands its presence in 
Central Asia, the Arctic, Africa, South America, and Europe. 
This increasingly complex environment necessitates continued 
dialogue between the U.S. and Chinese militaries to improve 
understanding and reduce risk.
    For PACOM, my goal remains to convince China that its best 
future comes from peaceful cooperation and meaningful 
participation in the current free and open international order 
and honoring its international commitments. After all, the 
Chinese economic miracle could not have happened without the 
rules-based order under which the region has long supported. 
But I have also been loud and clear that we won't allow the 
shared domains to be closed down unilaterally. So we will 
cooperate where we can but remain ready to confront where we 
must.
    Now, Russia's operations and engagement throughout the 
Indo-Pacific continue to rise, both to advance their own 
strategic interests and to undermine U.S. interests. China 
intends to impose additional costs on the U.S. whenever and 
wherever possible by playing the role of a spoiler, especially 
with respect to the DPRK.
    Russia also sees economic opportunities to not only build 
markets for their energy exports but also to build and in some 
cases rebuild arms sales relationships in the region. Of 
particular note are Russian efforts to build presence and 
influence in the high north. Russia has more bases north of the 
Arctic Circle than all other countries combined and is building 
more with distinctly military capabilities.
    In the PACOM region, one event dominated the 
counterterrorism fight in 2017, and that was the siege by ISIS 
[Islamic State of Iraq and Syria] in the Philippines and 
recapture by the government forces of the Philippine city of 
Marawi. It was both symbolic of the larger struggle against 
violent extremism and also an anomaly characterized by unique 
circumstances and opportunities.
    Marawi underscores two important themes with regard to 
defeating ISIS in the Indo-Pacific. First, localized threats 
can quickly transform into international causes, and early and 
effective response is vital to control the fight and own the 
narrative. Second, counterterrorism operations are extremely 
challenging, and most regional forces are poorly equipped for 
such fights. Our engagement strategy and capacity-building 
efforts have remained and will continue to remain focused on 
enabling regional counterterrorism forces to win whatever 
fights they face. Through multinational collaboration, we can 
eliminate ISIS before it spreads further in the area.
    Every day, our allies and partners join us in addressing 
these global challenges to defend freedom, deter war, and 
maintain the rules which underwrite a free and open 
international order. These mutually beneficial alliances and 
partnerships provide a durable, asymmetric strategic advantage 
that no competitor or rival could match.
    In the Indo-Pacific, our alliance with Australia continues 
to anchor peace and stability in the region, with increased 
collaboration in the counterterrorism, space, cyber, integrated 
air and missile defense, and regional capacity-building.
    Our alliance with South Korea is ironclad, and our alliance 
with Japan has never been stronger. The attack on Marawi City 
served as a reminder of the value of our alliance to Philippine 
security and stability.
    And we have reinvigorated our alliance with Thailand 
through continued engagement with military leadership to 
promote regional security and healthy civil-military relations. 
We have also advanced our partnerships with India, Indonesia, 
Malaysia, Sri Lanka, Vietnam, and many others who are dedicated 
to the principles of longstanding customary international law.
    While U.S. interests in the Indo-Pacific are real and 
enduring, the growing challenges to our interests are daunting 
and cannot be overstated. In order to deter conflict initiated 
by revisionist powers, rogue states, and transnational threats, 
we must continue to acquire and field critical capabilities. 
Our evolving force posture must decrease our vulnerabilities, 
increase our resilience, and reassure our allies and partners.
    America's resolve is strong, and it is imperative that we 
continue to show our commitment to this region in the years to 
come. I ask this committee to continue its support for these 
future capabilities that maintain our edge and prevent would-be 
challengers from gaining the upper hand. Based on your 
bipartisan efforts last week, I am excited about the path 
ahead.
    Thank you for your enduring support to the PACOM team and 
our families who work and live in the Indo-Pacific, a region 
critical to America's security. I look forward to your 
questions.
    [The prepared statement of Admiral Harris can be found in 
the Appendix on page 53.]
    The Chairman. Thank you, sir.
    And I appreciate your comments about the budget agreement 
last week. I think we in Congress often underestimate the 
extent to which our action or inaction sends a message to 
allies, adversaries, and fence-sitters who are out there in the 
world. You have to deal with all three of them in your region. 
And I think it is important for us to be reminded that even 
what we may consider routine actions has consequences, 
reverberations out in the world.
    I want to ask about what Kim Jong-un is after. The, I 
guess, dominant view is that he wants missiles and nuclear 
weapons in order to safeguard his regime--kind of the Qadhafi 
lesson, et cetera.
    But last month there was an article written by former 
Ambassador James Jeffrey that really provoked my thinking, and 
his basic point was that is the predominant view because to 
think anything else is so unpleasant that we don't let 
ourselves think that maybe he wants these nuclear weapons to 
hold U.S. cities hostage so that he can have his way and finish 
what his grandfather started on the peninsula. And Ambassador 
Jeffrey said maybe this dominant thinking reflects the historic 
tendencies of liberal societies to discount existential threats 
simply because they are so terrible to contemplate.
    I don't know. I would just be interested, after you have 
studied and thought about this, do you have a view about what 
his intentions are, but especially about whether we can 
recognize what his intentions are? Or are we limiting ourselves 
because the alternatives are too terrible to contemplate?
    Admiral Harris. Thank you, sir, for the question.
    I do think that there is a prevailing view that KJU is 
doing the things that he is doing to safeguard his regime. I 
don't ascribe to that view.
    I do think that he is after reunification under a single 
communist system. So he is after what his grandfather failed to 
do and his father failed to do, and he is on a path to achieve 
what he feels is his natural place and where North Korea's 
natural outcome is a unified Korean Peninsula that is subject 
to KJU and the communist regime there. So I think that is the 
long view and that is what he is after.
    I think his nuclear ambitions contribute to that view. It 
puts him in a position to blackmail the South and other 
countries in the region and us. And I think that is the 
overarching reason why he is pursuing the nuclear capabilities 
that he has.
    I think we are self-limiting if we view North Korea's 
nuclear ambitions as solely a means to safeguard his regime. I 
think we need to take that longer view and consider what he is 
really after.
    I think also that the idea of not being willing to confront 
the reality is extant. And my job is to contemplate those 
things that are difficult to contemplate, to imagine the 
unimaginable, if you will. And I have said before that what is 
unimaginable to me is a nuclear strike on Honolulu or Los 
Angeles or New York or Washington. That is unimaginable. So if 
that is unimaginable, then I can, in fact, imagine all the 
others, and I have to do that. That is what you pay me to do.
    The Chairman. Okay. Thank you.
    Adam? Excuse me. Mr. Smith.
    Mr. Smith. ``Adam'' works. We are all friends here.
    Following up just quickly on that question, so, I mean, I 
think the real answer is there is no way to know. I mean, we 
can guess what he is trying to do. I think anyone who 
confidently asserts that, you know, all Kim Jong-un wants to do 
is to protect his regime is just as wrong as anyone who 
confidently asserts that, you know, he definitely wants to 
reunite the peninsula. I would honestly say that he probably 
doesn't know and it sort of depends on the circumstances and 
how things play out. So we have to be prepared for both 
realities.
    But if we were to assume, from the chairman's question, 
that he is going to attempt to unify the Korean Peninsula and 
basically start a war with South Korea, how would that change 
our policy? What should we be doing differently now from what 
we are doing?
    Admiral Harris. Well, sir, I think what we should be doing 
is what we, in fact, are doing, and that is to increase and 
maintain the pressure campaign plan, run by the State 
Department, to convince Kim Jong-un that his nuclear ambitions 
are flawed and that we should continue to pressurize the North 
to achieve a complete verifiable and irreversible nuclear 
Korean Peninsula. We want to take that capability away from 
North Korea. That is our stated position. And I think----
    Mr. Smith. Just quick, I agree with you. And also I think 
it is really important that we emphasize to North Korea 
diplomatically and in any means possible that if they were to 
start a war with South Korea we would be there and they would 
lose and lose badly and that would be the end of the regime. So 
I think that is a very important part of it as well. But--well, 
I think that is all I will say on that.
    I had a quick question on China. You mentioned that the 
international order has greatly benefited China, and I think 
you are right. They are a growing economy and all that. And 
yet, as you said, they are subverting it constantly, 
particularly in their own actions with their immediate 
neighbors.
    What do you think China's calculation is on that? Why do 
they look at a world order that has enabled them to rise and 
seem so determined to undermine it? And is there some way that 
we could persuade them that it would be better if they didn't?
    Admiral Harris. I think that to understand China is to look 
at their fundamental underlying government premise, which is 
based on communism. I think they use everything that the 
international order has given them up to this point, which has 
enabled them to become a very strong economic power, and they 
are using that power to increase their military capability.
    Nothing wrong with that on the surface. Strong countries 
ought to have the militaries that they want and can afford. But 
I think it is how they are going about it and their stated 
ambitions for the remainder of this century that cause me to be 
concerned about China.
    Just as I said, what President Xi said during the 19th 
Party Congress was an affirmation of where China has been. They 
have this sense of this 100 years of humiliation and all of 
that. And I think the fact that there is a cult of personality 
now growing in China surrounding Xi Jinping is an area of 
concern for all of us who seek democratic values in the world.
    Mr. Smith. I appreciate that. And just an editorial 
comment. I mean, China's 100 years of humiliation, they have 
had a pretty good few decades. Can't they, you know, let that 
go?
    Admiral Harris. That is right.
    Mr. Smith. It is like, you know, they got Hong Kong back, 
they got Macau back, they are the second-largest economy in the 
world, they are everywhere. I think, you know, that tendency 
towards this nationalistic drive could potentially undermine 
the most thing that China should be trying to do, and that is 
figure out how to feed 1.4 billion people.
    Admiral Harris. Right.
    Mr. Smith. I am similarly concerned about their desire to 
go beyond that and be more of a dominant power instead of, you 
know, a strong regional player that works cooperatively with 
its neighbors. And I appreciate your leadership on that issue.
    I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral Harris, thank you very much for your service. 
And I was grateful firsthand to visit you several times, and 
each time I was so impressed by your capabilities and your 
dedication to our country and also your dedication of promoting 
peace through strength.
    Also, your appointment as Ambassador to Australia fulfills 
a prognostication by my wife, Roxanne, that President Trump is 
successful by surrounding himself by talented individuals. And 
it has been very humbling for me to have to let my wife know 
she was correct.
    Admiral Harris. He is sending me away, though.
    Mr. Wilson. Well, we are just really proud of your service.
    And, Admiral, in dealing with near-peer adversaries, I 
agree we must involve a whole-of-government response. My 
question lies in the definition and application of what ``whole 
of government'' looks like.
    Would you briefly explain the various touchpoints that you, 
as the PACOM commander, have as an opportunity to sit down with 
the diverse and relevant group of senior government officials 
to discuss the threats and the strategic planning to mitigate 
these challenges?
    Admiral Harris. So the challenges that we face, I think, 
are consistent with my previous testimonies. The most imminent 
challenge is North Korea. China remains an existential threat. 
Russia is an existential threat. And China is the longest term 
challenge that I think we face.
    And we have ISIS in the region as well, as I talked about 
in my opening statement. And the threat from ISIS is real in 
the Pacific, but as long as we continue to do the things that 
we are doing and build the capacity and capability of our 
allies and partners, I think we can keep ISIS at bay.
    With regard to the whole-of-government approach, I think it 
is essential that we view these threats from a whole-of-
government perspective. And by that, I mean that it is not 
enough that the State Department or the Defense Department view 
China as a rival. I think we need to view China, for example, 
as a rival across all of government. And the same for North 
Korea.
    And I would submit that, more than just a whole-of-
government, we need to have a whole-of-nation perspective on 
the threats that these regimes pose to the United States. I 
would also add that, from the Chinese perspective, I believe 
China has achieved that within their country. They view the 
United States as a rival across the whole of their nation. So 
they have a whole-of-nation view of the United States. And 
their system gives them the wherewithal to immediately have a 
whole-of-government view, but, more than that, they have a 
whole-of-nation view. And I think we are coming up to speed on 
the whole-of-government aspect, but we have more to go in that 
regard.
    Mr. Wilson. It is mutually beneficial for America and China 
to have a good relationship, but I am concerned about the 
propaganda operations within the United States. And, 
specifically, I would like to hear your thoughts concerning the 
Confucius Institutes and the role they play for the Chinese 
Government in the United States.
    Since 2005, more than 100 Confucius Institutes have opened 
at American colleges and universities. Last year, the number of 
institutes in the world rose by 40 percent. They are funded by 
the Chinese Government's Ministry of Education. In 2009, the 
head of propaganda for the Chinese Communist Party called the 
institutes, quote, ``an important part of China's overseas 
propaganda setup,'' end of quote.
    What is your view about these institutes?
    Admiral Harris. Yeah, I would agree, sir, with the concern 
there. I think DNI [Director of National Intelligence] Coats 
addressed this yesterday in his testimony before the Senate. It 
is important. And I think that we need to continue to look into 
the effect that Confucius Institutes and other influence 
operations that China has in our country.
    Mr. Wilson. And I am grateful, too, for your efforts in 
regard to soft power for the Indo-Asia-Pacific region, 
specifically working with India regarding ballistic missile 
defense. What is the status of the development with the 
Republic of India?
    Admiral Harris. So I view India as one of the biggest 
strategic opportunities that we have. I recently traveled to 
India in January to speak at the Raisina Dialogue. And I think 
that the opportunities with India, a country that shares our 
democratic values, the largest democracy in the world, and a 
friend of the United States--it is important that we continue 
to work closely with India, that we continue to provide things 
for the Indian military, and that we continue the mil-to-mil 
relationship with the Indian Armed Forces.
    Mr. Wilson. Again, congratulations on your appointment as 
Ambassador to Australia. Best wishes. Thank you.
    Admiral Harris. Thank you, sir. It is just the beginning of 
the process, but I am grateful for the opportunity.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, thanks for coming.
    I want to just shift gears a little bit in your testimony 
and your discussion about our allies and partners. Without 
going through each ally and partner, can you characterize 
generally their capability and willingness to invest in their 
own militaries, as well as to train to get to a level of 
effectiveness? Sort of playing off the theme that you--one of 
your themes in your testimony, that we need to have capable and 
able partners. Can you characterize how, maybe, folks fit into 
boxes there?
    Admiral Harris. Sure. I think that our allies are capable 
and their militaries reflect their commitment to the fact that 
they are allies of the United States. So they buy American 
equipment. We train a lot of their forces here, and we train 
together at sea and in the air and on land with them--the 
Japanese, the Koreans, the Australians of course, and on and 
on. So we have good, strong mil-to-mil relationships with these 
countries, and that is reflected in the makeup of their 
militaries.
    But I think in the partner realm, you know--and I 
differentiate that with--we have five countries that are treaty 
allies, and then we have partners out there. When I look at the 
partners, when you consider Singapore and what they provide for 
us, not only the stuff that they purchase from us for their 
military but what they provide for us, you know, they give us a 
platform from which to operate our ships, our staffs, our 
aircraft, and the like. That is very important.
    India is another partner, and we are working closely with 
them as we seek to improve the capability of their military. So 
I think that is another opportunity.
    Vietnam is a terrific opportunity for us. And their 
location is strategic. You know, we have an aircraft carrier 
strike group that is going into Vietnam next month, the USS 
Carl Vinson, which I think is exciting. It is exciting for us, 
it is exciting for the Navy, and it is exciting for Vietnam.
    Mr. Larsen. Yeah. Great. Thanks.
    Flipping back to China, I think a lot of your testimony and 
oral testimony has emphasized one aspect, and that is about 
defending against and trying to stop China from activities. But 
can you talk a little bit about what the U.S. can do or isn't 
doing to shape activities, maybe looking at diplomatic or 
informational or economic elements of power?
    Admiral Harris. Sure. So, when I criticize China, as I have 
done in the past and I just did a few moments ago, I also want 
to compliment China for the things that they do that are 
positive and for the greater good.
    For example, you know, they are operating in the Horn of 
Africa region for counter-piracy operations. They were 
operating in the Mediterranean during the effort to remove 
chemical weapons from Syria. They have operated in humanitarian 
assistance and disaster response operations. They helped in the 
search for a sailor that fell overboard a few months ago and 
the MH370 Malaysian airliner incident a few years ago.
    So these are positive things, indicative of a growing China 
that is finding its way in the world.
    But I think that the pressures that we bring to bear on 
China are, first, diplomatic. And for me, for PACOM, you know, 
what I have to do is ensure that we maintain credible combat 
power and that we demonstrate our resolve to fly, sail, or 
operate wherever international law allows. And by doing that, 
then we demonstrate to China that there is a role for order in 
the international system and that rules are meant to be 
followed and that rules benefit all. And that is the view I 
take.
    Mr. Larsen. And on that point--and I am sorry. The crux of 
my question is really, are we doing enough to support that last 
point you made? Do you have an assessment about whether or not 
the United States is doing enough to live up to that role of 
continuing to support the rules-based international order, in 
sending that message?
    Admiral Harris. Yeah, I think we are. I think in the 
military sense we are. You know, our freedom-of-navigation 
operations simply exist to do just what it says, to ensure the 
freedom of navigation. And that goes to the premise that 
countries ought to be able to fly, sail, or operate in 
international waters and airspace per the rules that we all 
ascribe to. So I think that in a military sense we are doing 
that.
    We have these engagements with China, the military 
consultative working group, for example, which allows us----
    Mr. Larsen. I am sorry, I don't want to be rude, but I 
really don't want the chairman to be angry with me. So thank 
you very much.
    Admiral Harris. Yes, sir. Thanks.
    The Chairman. I appreciate that.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral, thank you for being here, and thank you for your 
service to our country.
    In addition to Japan and Korea, what other countries in the 
region do you think should and could be contributing to PACOM's 
regional ballistic missile defense?
    Admiral Harris. I think that, you know, when you look at 
the threat vector, if you look at the threat vector from North 
Korea, I think South Korea and Japan are key to that. I think 
other countries could contribute if they want, but I don't want 
to speak for them. But, again, it is a function of the threat 
vector and their capabilities and their own budgets, whether 
they can afford that kind of a system.
    Mr. Rogers. Are you aware of any countries in the region 
that have expressed an interest in foreign military sales of 
BMD [ballistic missile defense] systems or potential 
development of BMD?
    Admiral Harris. Not to the degree that they have gone ahead 
with LORs [letters of request] and LOAs [letters of 
authorization] and that acquisition stuff.
    Mr. Rogers. Assuming that the two Aegis Ashore sites that 
Japan has begun the process of procuring and developing are 
complete and in place, what effect will that have on your U.S. 
Aegis ships in the region?
    Admiral Harris. It would relieve some of the pressure that 
I face and the Navy faces, the Pacific fleet faces in BMD, in 
ballistic----
    Mr. Rogers. And how would that manifest itself?
    Admiral Harris. Well, because we have ships that are 
underway to help the Japanese defend their homeland as part of 
our treaty obligations and defend Americans that are living and 
working in----
    Mr. Rogers. I understand, but what will you be able to do 
that you can't do now?
    Admiral Harris. I would be able to take that ship off-
station and put it somewhere else.
    Mr. Rogers. Like where?
    Admiral Harris. Like wherever it is needed at the moment--
you know, South China Sea, in the Indian Ocean, in the 
Philippine Sea, wherever I might need that ship.
    Right now, one of the obligations I have is a ship off of 
Guam for the defense of our homeland and a ship in the Sea of 
Japan that helps in the defense of Japan.
    Mr. Rogers. Excellent.
    Are you confident that the system that you have in place 
today to protect Guam, Hawaii, and the mainland is adequate?
    Admiral Harris. I believe it is adequate for the threat 
that we face today, but I think that much more needs to be done 
for the threat that we will face in 2 to 3 years.
    Mr. Rogers. For example?
    Admiral Harris. So I have advocated for the defense-of-
Hawaii radar, because I think that radar is essential for the 
threat that we are going to face from North Korea in 3 or 4 
years.
    I believe that one of our older platforms, the SBX, the 
Sea-Based X-Band Radar that is on that old platform, you know, 
that is only good when it is underway. And the defense-of-
Hawaii radar would allow me to cover the gaps when that ship is 
not underway or in maintenance. So that is important.
    Mr. Rogers. Well, I am always very concerned about keeping 
Madeleine Bordallo happy and safe. Is there anything else we 
need to be doing for Guam?
    Admiral Harris. I am all for Guam, sir. It is part of us, 
right?
    I believe that the THAAD [Terminal High-Altitude Area 
Defense] system that is there, the fact that it is a PCS, it is 
a permanent station there now, is important. And I want to 
continue to resource that.
    Mr. Rogers. But there is nothing in addition that you think 
at the present we need to be doing?
    Admiral Harris. At the present time, no, sir.
    Mr. Rogers. Great. Thank you.
    With that, I yield back, Mr. Chairman.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I am going to defer my questions to the closed session, but 
I do want to express my public admiration for Admiral Harris's 
great career.
    We appreciate your Tennessee ties, and we look forward to 
your success as Ambassador to Australia.
    And I also feel pressure from my colleague from Guam. I 
want to make sure she has maximum opportunity to ask her 
questions, so I will yield the balance of my time.
    The Chairman. The gentleman yields back.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I, too, Admiral Harris, appreciate and thank you for 
your service to our country. Some people don't know this, but I 
believe the term that you have is the ``Old Goat''?
    Admiral Harris. Right.
    Mr. Lamborn. The longest-serving graduate from your time in 
the Naval Academy?
    Admiral Harris. That is correct, sir. I don't know if that 
is a point of pride or I have just been around the longest.
    Mr. Lamborn. And, also, even though Colorado is not known 
for being a Navy State, you are moving there after your 
retirement, and so I will welcome you at that point.
    Admiral Harris. Thank you.
    Mr. Lamborn. But, in the meantime, besides finishing out 
your service as PACOM commander, you are going to be in 
Australia as our Ambassador, and congratulations on that. 
Australia is such a wonderful ally and always has been, and I 
appreciate the opportunity you have to strengthen the ties.
    What are some things that can be strengthened? I know that 
missile defense is a possibility or hypersonic glide vehicle 
research. There are some things going on. There is the Marine 
deployment in Darwin. What can you tell us about U.S.-Australia 
ties and how important that is in the Pacific?
    Admiral Harris. Yeah. Thanks for the question and for the 
lead-in for it. And I am honored to be given the opportunity to 
serve in Australia, but I don't want to presume the goodwill of 
the Senate. I will await my time.
    As far as Australia as an ally, they are a key ally of the 
United States. They have been with us in every war, or we have 
been with them in every war since World War I. I look to my 
Australian counterparts for their help and assistance. I admire 
their leadership in the battlefield and in the corridors of 
power in the world. So I appreciate the opportunity to work 
with them in my current role, and I am looking forward to 
continuing to be able to work with them in a potentially future 
role.
    Some of the areas that are key is the force posture 
agreements. So this involves the Marines in Darwin. You know, 
right now, this year, this March, next month, we will start the 
next rotation of Marines there. We will increase their rotation 
to about 1,500 Marines, which is significant.
    There is an Air Force component of the force posture 
agreement as well, the enhanced air cooperation piece, both at 
Darwin and at Tindal--Tindal Air Base in Australia. So that 
will help us in terms of refueling and other kinds of aircraft 
that we will be able to put in Australia. So I am excited by 
that.
    In the naval business, as they finish their buildup of 
their three Hobart-class ships and then moving on to their 
next-generation antisubmarine warfare ships, there are 
opportunities for us to continue to work with them as they 
develop that capability.
    They have bought a French submarine buy. It is a 
significant buy over a number of years. And I believe that we 
should help them as they develop that submarine in the years to 
come, because we want to be able to continue to interoperate 
with the Australian forces in every domain. And, you know, I 
think that as we continue to do that, then we will improve our 
own capabilities together with our Australian ally.
    Mr. Lamborn. Thank you. And I will just finish up with a 
question building on what Chairman Mike Rogers asked about, 
Aegis Ashore.
    We really want to protect Guam; we also want to protect 
Hawaii. That goes absolutely without saying. That is so 
critical. What can you say about Aegis Ashore in Hawaii?
    Admiral Harris. Yeah. So I am not smart enough to zero in 
on a system for Hawaii. What I have advocated for in the past--
and thanks to the Congress, we are going to see some of that 
laid out here in the next year or two, and that is, first, the 
defense-of-Hawaii radar.
    And then the next step, I have also advocated for a study 
through MDA, Missile Defense Agency, to determine what the best 
missile defense itself for Hawaii is. There are a number of 
options. Aegis Ashore is one. THAAD is another one. Perhaps a 
ground-based interceptor capability for Hawaii. I think all of 
those should be looked at.
    I think today, from the threat that we face in Hawaii from 
North Korea, Aegis Ashore and THAAD might not be the best 
platforms for Hawaii, given the trajectory and the geometries 
of the missiles that are launched. I am confident in our 
ground-based systems today to intercept and protect Hawaii, and 
those ground-based systems are in California and Alaska. But I 
think in the years ahead it would do us well to at least study 
the possibility of putting some kind of interceptor capability 
in Hawaii.
    Meanwhile, I am pleased about the defense-of-Hawaii radar--
--
    Mr. Lamborn. Thank you.
    Admiral Harris [continuing]. Because I think it is 
important.
    Mr. Lamborn. Thank you.
    The Chairman. The gentlelady from Guam is recognized for 5 
minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And I want to thank Admiral Harris for keeping an eye on 
Guam ever since you have been in your present position, and of 
course to wish you the best. You are going to the beautiful 
country of Australia, and you will still be in the Pacific, so 
we expect that your interests will remain the same.
    I also want to thank my colleagues. Since I have been here 
on the Armed Services Committee, they have always been very 
supportive of Guam. You know, compared to States, as a 
territory, we are small and many would probably say 
insignificant. But to everyone now in this committee, they know 
how important Guam is strategically in the Pacific area.
    And I want to thank you, Admiral, for your interest over 
the years.
    So it should be no surprise to you that the Readiness 
Subcommittee continues to be alarmed with the state of naval 
readiness in the Pacific. Since you last testified before this 
committee, we have seen 2 ships damaged in collisions, 
resulting in the needless loss of 17 sailors.
    As the commander of U.S. Pacific Fleet, you identified dry-
docking in Guam as a critical component of depot-level ship 
repair to support the 7th Fleet during times of peace and war.
    Ten months ago in front of this committee, you called for 
investments to support increased resiliency via projects in 
Japan, Guam, and Australia.
    Then, in November, the Fleet Comprehensive Review 
identified capacity issues at the ship repair facility in 
Yokosuka, Japan.
    Yet, just 2 weeks ago, Admiral, the Navy started again to 
dismantle the only moorings capable of supporting a floating 
dry dock on Guam.
    So, Admiral, you are the supported commander in the 
Pacific, the individual that drives requirements for what we 
need to deter aggression, maintain readiness levels, and, if 
necessary, win America's wars. So, as the geographic combatant 
commander, do you agree that current depot-level ship repair 
capability and capacity in the Pacific is insufficient to meet 
both peacetime and contingency requirements with a peer 
adversary?
    And do you still believe that additional depot-level ship 
repair capability and capacity, to include additional dry 
docks, are needed to meet current and future readiness needs in 
the Pacific, especially with plans to increase the size of the 
Navy?
    Admiral Harris. Thanks for your question, Madam 
Congresswoman. And let me begin by publicly again offering 
condolences for those 17 sailors that were lost on the USS 
McCain and USS Fitzgerald.
    I do not agree, ma'am, today that we have an insufficient 
shipyard capability. I believe the capability of our shipyards 
are adequate today.
    But, as the Navy increases to 355 ships, I do agree that we 
need to look hard at the shipyard capabilities in the Pacific, 
whether they are in CONUS [continental United States] or 
whether they are in Hawaii, potentially in Guam, and in 
Yokosuka. And I think that 355-ship number will cause us to 
take a hard look at the shipyard capability for the future.
    Ms. Bordallo. So what you are saying, then, Admiral, is 
that there still is hope and you are still looking at it.
    Admiral Harris. Yes, ma'am.
    Ms. Bordallo. All right.
    The second question: In the National Defense Strategy, the 
Defense Department calls for investment in layered missile 
defense from North Korean threats. Secretary Mattis confirmed 
before this committee last week that the Department will 
continue to bolster missile defense of Guam and in the Pacific 
to keep pace with the ballistic missile threat.
    From your perspective as the combatant commander and 
considering PACOM's published number one priority of defending 
the homeland and its citizens, do you feel you have adequate 
ballistic missile defense capabilities to defend forward-
deployed military assets, our allies in the region, as well as 
all Americans, without fail?
    Admiral Harris. I do--as I have mentioned before, ma'am, I 
do believe that we have that capability today in 2018. But 
given where we think--without going into classified subjects, 
but given where we think the North Korean capability might be, 
in terms of their missiles, in 3 or 4 years or in the early 
2020s, I think we must continue to improve our missile 
defenses.
    And that is why I am an advocate for the defense-of-Hawaii 
radar system and I have advocated for a study to look at 
whether we should put ground-based interceptors or something 
like that in Hawaii. And I think we must continue to resource 
and improve the capabilities of the THAAD system that we have 
in Guam, as well as our BMD ships that are in the Pacific, most 
particularly in Japan.
    Ms. Bordallo. Thank you very much. I don't want the 
chairman to be mad at me either, so my time is up.
    The Chairman. Never.
    Ms. Bordallo. I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Harris, thanks again--right here. Thanks again for 
your service, and we wish you continued success in your future 
endeavors.
    I want to point to the National Defense Strategy, where it 
talks about rapid technological advancements and the changing 
character of war. And it speaks in there specifically about 
hypersonics and how China now is actually prioritizing and 
funding development of hypersonics.
    And I want to go to what you wrote. You said, ``I am also 
deeply concerned about China's heavy investments in the next 
wave of military technologies, including hypersonic missiles, 
advanced space and cyber capabilities, and artificial 
intelligence. If the U.S. does not keep pace, USPACOM will 
struggle to compete with the People's Liberation Army on future 
battlefields.''
    You have also said that not only should we keep up, we have 
to outpace our near-peer adversaries. And specifically in what 
we are seeing happening in China with now their advancements 
and prioritization of hypersonics, I wanted to get your 
perspective about where you see China's capabilities now, where 
it may be in the future, what we need to do, and what are the 
threats that we face in the Indo-Pacific with this capability 
that China has. And what should we do not only to counter--and 
the physics of that become very difficult--but, also, what do 
we need to do in developing that capability?
    Admiral Harris. Yeah. So, Congressman, I think that China's 
hypersonic weapons development outpaces ours now, and I think 
we are falling behind.
    We are hamstrung in a number of ways, one of which is some 
of our treaties are self-limiting, in my opinion. There is 
nothing in the INF Treaty, the Intermediate Nuclear Force 
Treaty, that precludes development of systems, but fielding 
them becomes a problem for us.
    China is not subject to the INF, and their hypersonic 
weapons program is an indication of that. Over 90 percent of 
China's ground-based missiles would be excluded by INF if they 
were now in it, and we have no missiles that can meet that 
capability from the ground. So we have air-launched and sea-
launched missiles, but they are limited by those air and sea 
platforms that we have talked about in the previous question.
    So I think that, in terms of hypersonic weapons, that we 
need to continue to pursue that in a most aggressive way in 
order to ensure that we have the capabilities to both defend 
against China's hypersonic weapons and to develop our own 
offensive hypersonic weapons.
    Mr. Wittman. Very good. Thanks.
    I want to ask another question, too. When you look at the 
challenges that you face in PACOM and looking at any of these 
OPLANs [operational plans] and what you would have to execute 
with that, one of the things that I think is a glaring 
deficiency is the current state of our Ready Reserve Fleet in 
being able to mobilize, get supplies and troops forward 
deployed.
    If you look at where we are--and I just had a chance to 
talk to Admiral Buzby, who is the MARAD [Maritime 
Administrator] Administrator--as well as look at our fleet, we 
have 46 ships in the Ready Reserve fleet. Average age: 43 years 
old.
    I got to visit the SS Gopher State crane ship, a great 
ship, and the mariners on board do a great job. But there are 
two things that I think should concern us. One is the age of 
that fleet and being able to mobilize quickly. Second is what 
we would have to do to surge merchant mariners. It is not just 
the ships, but it is the number of merchant mariners that we 
need going forward.
    Give me your perspective about where we are today with the 
Ready Reserve Force sealift. And, you know, airlift is a 
different component of that. Give me your thought about that. 
And how critical a component is that in what you need in the 
Pacific Command in order to meet these OPLAN requirements?
    Admiral Harris. So I believe that we are deficient in 
sealift to a strategic level. I think we must resource them, 
resource the Military Sealift Command, both to decrease the 
average age of the fleet and also to increase the size of the 
merchant fleet. It is imperative at a strategic level, in my 
opinion.
    Nowhere is that felt more than in the Pacific. To go from 
the West Coast of the United States, while all our force is 
there, to lift that force to fight on the Korean Peninsula in 
support of the Korean war plans is a months-long process when 
you consider the time it takes to call up the fleet, mobilize 
the fleet, activate the fleet, mobilize and call up the 
mariners, find them, and then send them, and then load all the 
stuff on them.
    So I think that we are deficient in that. I agree with you 
completely that sealift is a strategic shortfall in our system 
today.
    Mr. Wittman. Do you believe the Navy should reflect that 
priority in their projection about the ships we need to build 
in the future?
    Admiral Harris. I do. But I think that it is more than just 
the Navy. There is an airlift component to it. I think the guy 
who has probably got the hardest job in the joint force is 
Darren McDew, General McDew, at TRANSCOM [U.S. Transportation 
Command], because he is responsible for both sealift and 
airlift. And I think it is bigger than just the Navy, it is 
bigger than just the Air Force; it is part of the joint force.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, Admiral, again for, you know, your great 
service and really incredible accessibility to this committee 
over the last 3 or 4 years.
    Also want to, as the co-chairman of the Friends of 
Australia Caucus with my colleague Mr. Gallagher from 
Wisconsin, just say how--again, your appointment is really 
outstanding.
    This is a big year for our two countries. It is the 100 
years of mateship, which we are celebrating really an alliance 
that is probably as deep and strong as any country in the 
world. And it is based on--and I think you know this--not just 
shared interests but also shared values. And you are going to 
have a zero learning curve to take on this task in, again, an 
important time. So congratulations.
    I would like to focus again on an issue that you have been 
pretty persistent in all of your prior visits, which is to 
focus on the undersea realm, where, again, you have noted that 
we still have an asymmetric advantage, but that is not a static 
condition.
    And, again, page 25 of your testimony actually sort of 
quantifies, you know, sort of where we are today and where it 
is going in the future. I was wondering if maybe you could talk 
about that a little bit.
    Admiral Harris. Thanks.
    I will start off by commenting on the 100 years of 
mateship. You know, that was started with General Monash, who 
was the first time an American force fought under a foreign 
leader, General Monash in World War I.
    On submarines and submarine warfare, undersea warfare is an 
asymmetric advantage that the United States has. No country on 
the Earth can touch us in our ability to operate under the sea. 
But that is a perishable advantage that China and Russia are 
trying desperately to close. And if we don't continue to 
resource the undersea warfare capabilities that are resident in 
the Navy today, both in the submarine force and in our 
antisubmarine warfare forces, China and Russia will close that 
gap, and then we will face a significant challenge to our 
position in the world.
    Mr. Courtney. Thank you.
    And, again, just to go to your testimony, again, which I 
think really kind of focuses exactly on what you just said, is 
roughly 230 of the world's 400 foreign submarines are in the 
Indo-Pacific, of which 160 belong to China, Korea, and Russia. 
Obviously, our entire attack submarine fleet is about 52, and 
that is obviously not all focused in the Pacific. So, I mean, 
at some point, this is math.
    Admiral Harris. Yeah. And I am concerned about it. I mean, 
I think it is arithmetic, really. I mean, it is at 52 now, and 
in the 2020s it is going to dip down into the low to mid-40s.
    And, you know, my requirements for submarines are only met 
by about half now. And that is on the denominator of 52. When 
that denominator goes down--I guess that would be math then. 
When that denominator goes down, then the percentage of 
submarines that I get will be even less.
    Mr. Courtney. Thank you.
    I would like to follow up on Mr. Wittman's question 
regarding sealift. Because, again, you know, the part of the 
world that you are in, you know, particularly the Korean 
Peninsula, you know, in terms of offshore petroleum 
distribution for, you know, a situation that might arise there, 
I mean, that is an example, I think, a concrete example, of 
where, you know, we have got a challenge right now in terms of, 
you know, what sealift resources are out there.
    I was wondering if you could sort of focus on that as just, 
you know, a specific example.
    Admiral Harris. Yeah. I agree with you. And I think that in 
that niche capability, offshore petroleum distribution, and the 
way that we are going to get our fuel from places like Red Hill 
in Hawaii to the fight in Korea, you know, we don't want to 
have that dependent on a 46-year-old ship, for example. So we 
have to invest in that, in my opinion.
    Mr. Courtney. Great. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Admiral Harris, over here. Thank you so much for your 
extraordinary years of dedicated service to the United States 
Navy and to our country. And pending Senate confirmation, 
congratulations on your nomination and hopefully confirmation 
to be the United States Ambassador to Australia.
    My fundamental concern is this, that historically we know 
whenever there is an established power and an ascendent or a 
rising power there tends to be conflict. Not always. I mean, 
there are times when historically it has been managed to avoid 
conflict. But often there is.
    And when I look at your area of operations, particularly 
in, let's say, the South China Sea, where China is that 
ascendant power, and certainly they are focused on projecting 
seapower, that--and when we look at the United States, during 
the Reagan buildup, we had about almost 600 ships, 600 vessels. 
Now we are down at--I think the number is around 280 
operational vessels below that. And so the greatest worry I 
have, in terms of looking at our conventional capability, is 
the projection of seapower.
    And what China wants to do, certainly, is, you know, area 
denial, to keep us out of being able to intervene in the event 
that they would act on Taiwan or in the event that they would 
act on any of their territorial ambitions, let's say, in the 
South China Sea, in that particular region.
    And so, you know, certainly, the ships we have today are 
more capable than their predecessors, but no ship can be in two 
places at the same time. And so how concerned are you about our 
ability to, in a sense, be a deterrent to aggression in that 
region, given the rise of China and given our conventional 
capability in terms of the projection of seapower?
    Admiral Harris. Thanks for the question.
    And I could not agree more. I believe that, in terms of 
just pure numbers--right? I mean, quantity has a quality all 
its own. And when you don't have the quantity and you rely 
solely on quality and the other fellow has enormous quantity, 
then you are at a disadvantage.
    And I think that is potentially the vector that we face if 
we were to continue on the course we were on. But I think we 
are on a different course now, thanks to the Congress, that we 
are moving toward a larger Navy.
    I think power projection is inherent in the power of the 
joint force. And, you know, people talk about anti-access/area 
denial and the threat that our carriers face from China, and my 
response to that is, if the carriers were so vulnerable, why is 
China trying to build four or five of them? And so, you know, I 
think that the power that is inherent in an aircraft carrier 
strike group is enormous and is reflective of the power of the 
Nation behind it.
    I don't ascribe, in all respects, in all cases, to this 
idea of the Thucydides trap, where a rising power and a 
declining power are inevitably doomed to go to war. And I think 
in the case of China and the United States, I would debate 
anybody on who the rising power is in that equation. I think 
America is on the rise, that we are the rising power.
    And so, you know, I am hopeful that it won't come to a 
conflict with China. But, as we all have to be, we must all be 
prepared for that, if it should come to that.
    Mr. Coffman. So if we look at our allies in the North 
Atlantic Treaty Organization, most of them are stepping up to 
the plate in terms of what the requirement has been stated, 2 
percent of GDP [gross domestic product] for defense spending as 
a minimum requirement. And, you know, that is problematic, 
certainly, for us in terms of being a deterrent factor to 
Russia.
    What do you see in terms of our allies? Obviously, we don't 
have a metric that is required, and we don't have--there are 
some formal treaties, but there are associated powers that are 
friendly to the United States and could be treated as allies--
--
    Admiral Harris. Yeah.
    Mr. Coffman [continuing]. That we don't have a formal 
relationship with. But what do you see, in terms of the rise of 
India--I guess I will take that for the record, Mr. Chairman. 
Thank you.
    [The information referred to was not available at the time 
of printing.]
    Admiral Harris. Thanks.
    Mr. Coffman. I yield back.
    The Chairman. I appreciate it. We are making good progress. 
We want to keep making good progress.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Aloha, Admiral Harris. It is great to see you here. I would 
just like to briefly thank you for your service. But, 
specifically for Hawaii, you have been a great friend to the 
people of Hawaii, and I think people there consider you one of 
our own.
    Thank you for talking about the importance of the defense-
of-Hawaii radar. For many reasons, obviously, the people of 
Hawaii and this country are becoming more keenly aware of the 
growing threat coming from North Korea. And I want to thank the 
work that my colleague Congresswoman Hanabusa and I have done, 
in conjunction with the leadership of this committee, in 
continuing to move the funding forward for this radar. You 
know, we cannot be solely dependent on the SBX deployment 
capability for the defense of Hawaii.
    I wanted to ask you about China's role in finding a 
peaceful resolution to this growing threat from North Korea--
not only what more can be done to engage China in this regard, 
but also if you can address the role of North Korea's other 
bordering country, Russia. What role do they or should they be 
playing as we seek to explore all diplomatic means possible to 
resolve this threat?
    Admiral Harris. Thank you. And it is always good to see 
you. Pending the goodwill of the Senate, I am going to coin a 
new phrase, ``gadoha.'' That will be the new thing.
    Ms. Gabbard. That is right.
    Admiral Harris. With regard to China and DPRK, North Korea, 
I think China holds the key. And I have said before that China 
is the key to a peaceful outcome on the Korean Peninsula, but 
China is not the key to all outcomes. And so the onus really is 
on them. If over 90 percent of North Korea's trade comes from 
China, then, despite whatever China says, they have a lever 
that ought to be applied.
    That said, I want to be upfront and acknowledge that China 
is doing a lot in the pressure campaign plan in pressuring 
North Korea and in honoring the U.N. [United Nations] sanctions 
against North Korea.
    I think there is more to be done. I think this issue of 
guest workers, these are folks that are--North Koreans that 
work in other countries, and then their pay, their revenue goes 
back to the regime. I think there is a lot to be done in that 
regard. We think that, overall, in the world, there are 
probably 80,000 of these guest workers. Many countries are now 
sending those guest workers home, but even so, 60,000 of the 
80,000 are in Russia and China. So Russia and China have a big 
lever.
    So I think there is more that could be done and there is 
more that must be done in that regard. But I do want to 
acknowledge that China is doing a lot in terms of joining the 
pressure campaign and in enforcing the sanctions that the U.N. 
has placed on them.
    I think that Russia holds the role of a spoiler. They have 
said that they will cover down on where the sanctions pressured 
North Korea too much. And I think that that fits their role as 
a spoiler. So there is much to be done in the Russian space, if 
you will, with North Korea and particularly in this area of 
guest workers.
    Now, they have said that they are going to expel their 
guest workers, the North Korean guest workers, in 2019. Now, 
that is a positive, and I want to be optimistic about it. But 
until they do, then it becomes problematic.
    Ms. Gabbard. Briefly, in 2016, India was declared a major 
defense partner. You have made it a priority throughout your 
time in command to increase the security engagements with 
India.
    Do you feel that the implementation of this designation as 
a major defense partner is being implemented appropriately? And 
if so, great. If not, where are there other opportunities for 
growth?
    Admiral Harris. Yeah. So, as I have said, I do believe that 
India is our great strategic opportunity--shared values, shared 
concerns, and all of that. They are the only country in the 
world that is designated as a major defense partner, and we, 
the United States, we need to continue to look for ways to turn 
that term into reality.
    I think we have a great opportunity coming up in India to 
improve the capability of their defense forces. I spoke in 
Raisina [Dialogue] 3 this year, and the theme of my talk was 
this is the year to get things done. So we have talked about 
it. We designated India in 2016. In 2017, we continued that 
work. I think in 2018 this is the year to get things done.
    That means we have to do things on our side as well. There 
are these foundational agreements that we require countries to 
adhere to. I think we need to be creative in how we insist on 
that application in India and work with the Indians so that 
together we can come to a place where we can realize this 
``major defense partner'' moniker.
    Ms. Gabbard. Thank you.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Admiral, thank you much for being here this morning.
    We hear the phrase ``whole-of-government approach'' when it 
comes to the United States, and I heard recently someone refer 
to the whole-of-country approach that China takes with respect 
to as they address whatever their issues.
    I have supply chain concerns across a wide spectrum of 
issues, in particular, things that we buy from the Chinese--
telecommunications and other gear. While the companies like 
Huawei and ZTE might argue that they are outside Chinese 
Government control, there is no real way to prove that. There 
is no real way to know what the influences are.
    The other direction would be things that they buy, 
companies they buy here, you know, certain issues that we 
wouldn't like them to control--the CFIUS [Committee on Foreign 
Investment in the United States] review process, the high-end 
things that we would obviously be concerned about, all the way 
down to buying a seed company that controls seeds that we need 
year in and year out for our agriculture issues.
    One, do you share those concerns? And if you do, can you 
talk to us somewhat about what you would see as the CFIUS 
review process needing to be upgraded, as well as buying 
telecommunications and other things that would be implemented 
on our bases and in our gear?
    Admiral Harris. Thanks for the question.
    I am very concerned about Chinese direct investment in the 
United States and their ability to buy stuff either that are 
critical to our defense or buy tracts of land that are adjacent 
to our major training ranges and the like. So I have been 
involved in the CFIUS process since I was the Pacific Fleet 
commander. I think the process is laborious and it is 
discouraging.
    That said, CFIUS 2.0, part of the FIRRMA [Foreign 
Investment Risk Review Modernization] Act that is being worked 
in Congress now, I am completely in support of that. I think it 
is absolutely essential to our national defense that we move 
out and improve CFIUS. And the CFIUS 2.0 process I think is 
commendatory, and it has my support.
    Mr. Conaway. So what about stuff we would buy? Are you 
concerned buying things, like, from Huawei or ZTE?
    Admiral Harris. Sure.
    Mr. Conaway. Okay.
    Admiral Harris. Absolutely.
    Mr. Conaway. All right.
    So Mr. Coffman got you started down a little bit on power 
projection. Could you speak specifically about the importance 
of airpower projection and forward deployment of that 
projection, whether it is on aircraft carriers or other places 
where we would have our aircraft, given the new threats or what 
appear to be emerging threats to carriers and other things?
    Admiral Harris. Yeah. So power projection, again, is the 
backbone of any nation's ability to maintain its defense. I 
think airpower is key not only because I wear wings but because 
of the reality of what airpower brings.
    Whether that airpower is launched from the shore or from an 
aircraft carrier is not as important as the airpower itself, in 
my view. The carrier gives you the flexibility, and that has 
its own inherent importance, but I think things like the fifth-
generation aircraft are vital.
    And I think that when you look at the numbers of fourth-
generation fighters that we will have at the end of the 2020s, 
I think we should invest also in the capability to improve 
those fourth-generation fighters to something--you know, I use 
the term fifth-gen-minus or fourth-gen-plus. You know, it is in 
that regard.
    I think we need to continue to invest in Long-Range Strike 
Bomber capability. The B-21 comes to mind as a follow-on to the 
B-2 and the B-1. I use today, heavily, B-52s and B-1s in 
addition to B-2s, today, heavily, in our lightning missions in 
the Pacific.
    Mr. Conaway. Well, Admiral, thank you and your wife for 
your long service. And if you can make it through that 
laborious process on the other side of the building to become 
an ambassador, look forward to your service there.
    So, with that, Mr. Chairman, I yield back.
    The Chairman. Ms. Rosen.
    Ms. Rosen. Good morning. Thank you, Mr. Chairman and 
Ranking Member Smith.
    And thank you, Admiral Harris, for your service. And 
congratulations on your future endeavors.
    What I wanted to ask is this: Last week, Secretary Mattis 
was here before this committee and talked about the Nuclear 
Posture Review [NPR]. And it contemplates some very novel 
circumstances under which nuclear weapons can be used.
    So, given the ever-present threat of North Korean cyber 
attacks and the nation's advancing nuclear weapons programs, in 
what ways could the expanded scenarios in the NPR allow for the 
use of nuclear weapons against non-nuclear threats, like a 
cyber threat? And how is that going to increase the likelihood 
of a nuclear exchange between the U.S. and North Korea?
    Admiral Harris. It is an important question, but I am going 
to defer it because I am not the expert on nuclear weapons----
    Ms. Rosen. Okay.
    Admiral Harris [continuing]. And I don't have any under my 
control. The nuclear weapons that are extant in the force are 
under General Hyten's control at STRATCOM [U.S. Strategic 
Command]. But I will be happy to take the question and try to 
get back to you in some coherent way.
    Ms. Rosen. Thank you. I appreciate it.
    Well, then I am going to move on to another question. I am 
really concerned about this new budget and its significant cuts 
to the State Department.
    So we are all in agreement that combating the threat of 
North Korea is going to require a lot of strong cooperation 
with all of our allies in the region, just like we are heading 
off China's attempts to become the world's leading military and 
economic power. It is going to necessitate us strengthening our 
alliances and pursuing new partnerships. And the military play 
crucial and critical roles in the efforts, just like our 
diplomats do, and we need those resources.
    So I am wondering what effects--and now you are going to be 
going to a new job, maybe, as the ambassador. So what effects 
could these significant cuts to the State Department budget 
have on your ability to build those partnerships?
    Admiral Harris. So I am not an expert on the specific cuts 
in the State Department. But I will say in general that a 
strong State Department and a strong military Defense 
Department together make a strong nation. A weak State 
Department means you are going to have to have a much stronger 
Defense Department.
    So I think the diplomacy and military capabilities and 
defense go hand in hand. And I don't want to see a place 
where--you know, Foreign Minister Talleyrand, back in the old 
French days, he said once to his field marshal that when my 
profession fails--being the foreign minister--when my 
profession fails, yours has to take over. I think it is much 
better that both professions go hand in hand to strengthen the 
country.
    Ms. Rosen. Thank you. I look forward to building those 
partnerships in your new endeavor.
    Thank you. I yield back my time.
    The Chairman. Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    First of all, I just want to thank you again for your 
service to our Nation, you and your wife. And we look forward 
to continued service in a different capacity.
    I wanted to cover a couple of areas with China, the 
influence just as the One Belt, One Road Initiative, as well as 
the influence in Australia. And we primarily look at the One 
Road, One Belt Initiative from an economic standpoint, but 
there is a military component to it as well, and I was 
wondering if you could describe a little bit about that. We 
know that there is the new military base in Djibouti. We know 
that there are some access ports issues, potential bases.
    But could you expound on that and then how we are changing 
our force posture, as well as our operational plans, 
accordingly?
    Admiral Harris. So I think One Belt, One Road is, in fact, 
much more than just an economic engine that China is 
undertaking. I think it seeks to link economically the 
population of China with markets and resources in Europe and 
Africa and Central Asia. And I think that is all good. You 
know, anything that you put to improve the quality of life of 
folks through trade is a positive.
    But I think also that One Belt, One Road seeks to displace 
the United States and our friends and allies in the region, in 
the Indo-Pacific region, by China. It is a concerted, strategic 
endeavor by China to gain a foothold and displace the United 
States and our allies and partners in the region.
    And I think you need to only look at the bases and places 
where China is putting its emphasis to see the realization of 
this. They are in a position today to influence the shipping 
routes in the Strait of Hormuz; in the Gulf of Aden; the Red 
Sea, which means the Suez Canal; and also in our hemisphere in 
the Panama Canal; and also, finally, in the Strait of Malacca. 
All those global choke points are under pressure from China's 
One Belt, One Road Initiative.
    And I can go on and on about it, but I will stop there 
unless you have more specific questions.
    Mrs. Hartzler. Yes. How are we adjusting our force posture 
and our operational plans as a result? Or have we?
    Admiral Harris. Well, part of the force posture is the DPRI 
[Defense Program Review Initiative], the distributed movement 
of U.S. forces out of Japan, not all of them, of course, but 
some of them out of Japan, and putting them in Australia and 
Guam and Hawaii and back in the United States. So that is part 
of it.
    We are also improving our relationships with countries like 
Sri Lanka, which, to me, is an important relationship; 
obviously, with India that we talked about. Singapore is key, 
as I mentioned earlier, and the access that we enjoy because of 
our Singaporean partners, that access is strategically 
important to the United States, in my view.
    Mrs. Hartzler. Great.
    Moving on to Australia--and thank you for mentioning the 
bombers and the airpower and how important it is. Certainly 
Whiteman Air Force Base, I know the B-2 has been part of some 
operations there. And we have had some training with our 
Australian allies, both as far as large-force air exercises, 
integration with air control parties on the ground. And we have 
also sent liaison officers to visit their operations centers to 
give and receive briefings on joint capabilities.
    So how effective do you think these efforts have been in 
strengthening our partnership with Australia? How can we build 
on these efforts moving forward?
    Admiral Harris. Yeah. Again, I think that Australia is one 
of the keys to a rules-based international order. They are a 
key ally of the United States, and they have been with us, 
again, in every major conflict since World War I.
    I think that there are many areas that we continue to work 
with the Australian Defense Forces, and that includes their 
work in Darwin, their work at Tindal Air Base, both in the Air 
Force and the Marine Corps.
    Our navy-to-navy relationship with the Royal Australian 
Navy and the Army relationships are terrific. They are key 
partners. They have key staff officers on my staff in Hawaii at 
the general officer level and at the SES level, Senior 
Executive Service level, that play key roles in PACOM. I could 
not do what I do without those officers there in Hawaii.
    Mrs. Hartzler. Okay. Thank you.
    The Chairman. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Admiral Harris, thanks for your appearance today and--over 
here. Amazing how the Navy seems to be able to make a sailor 
seem older than they are, with the distinctions you have as the 
``Old Goat'' and the ``Gray Owl.'' But I thank you for your 
service and your longest serving naval flight officer, which 
has given you that distinction as the ``Gray Owl.''
    We have heard a lot today about the threats to the posture 
and readiness under your command, but could you just sort of 
briefly identify, without a lengthy description, just what 
would be the top three--not the only three, but the top three--
readiness challenges or concerns that you have for your forces 
under your command?
    Admiral Harris. Yeah. Just briefly, sir, as you asked, my 
top three readiness concerns are munitions, submarines, and 
ISR--intelligence, surveillance, and reconnaissance assets. And 
I will stop there, depending on more questions.
    Mr. Brown. No, I appreciate that.
    I had an opportunity to visit U.S. Forces Korea and also 
Okinawa. And regarding munitions, you know, one of the concerns 
that were presented in a variety of briefings is not only what 
you have on hand but the storage capacity and not just the 
amount of capacity but the aging nature of those facilities. 
Can you talk a little bit about that?
    Admiral Harris. I can.
    And so, at the beginning of my time at Pacific Command, I 
was worried about some of those key munitions shortfalls. And 
now that the Army and the other services have moved munitions 
to the peninsula, I am beginning to worry about munitions 
storage capacity.
    So what I tell folks, that is a nice problem to have. I 
mean, I am glad I have that problem, not the earlier problem. 
But we have to get after that one now in a serious way.
    Mr. Brown. And is that reflected in the budget?
    Admiral Harris. It is.
    Mr. Brown. Okay.
    Admiral Harris. And it is reflective in what South Korea 
has provided the United States in terms of their commitments 
under the alliance.
    Mr. Brown. Okay. And let me just continue. I know, perhaps, 
if I asked you for a lengthier list than the top three, you 
would have included noncombatant evacuation operations----
    Admiral Harris. Right.
    Mr. Brown [continuing]. NEO. That also is a concern that I 
have. When I was on the peninsula, you know, in conversations 
with General Brooks and General Vandal, who just left, as you 
know, the Eighth Army after doing a remarkable job there, and 
also with General Cornish, 18th Wing on Okinawa, it doesn't 
seem as if we really have a NEO--a good grasp of what we need 
to do.
    I mean, I think it sounds like the plans are in place, the 
documents are there. You would pass, sort of, like, a command 
inspection, check the block, yeah, you got what you need. But I 
don't get the sense that, like, the rehearsals, the walk-
throughs, the, you know, soup to nuts have been thought through 
logistically, how, as we are bringing follow-on troops onto the 
peninsula, we coordinate then, you know, dependents and other 
U.S., you know, citizens and others who we are responsible for 
to get them off the peninsula.
    In fact, there was a comment, not by any of the three 
officers who I mentioned, but, you know, by a person who 
briefed us that, when asked about NEO, it was sort of like, 
``Yeah, well, we are starting to take a look at it.''
    And so can you just talk a little bit about NEO----
    Admiral Harris. Sure.
    Mr. Brown [continuing]. And what----
    Admiral Harris. So I would say that we are much further 
along, Congressman, than just taking a look at it, but there is 
work to be done. And so U.S. Army Pacific, General Brown and 
his staff in Hawaii, has been charged to develop the NEO plan 
and then to see it through to fruition.
    General Brooks and I have made NEO a key line of effort in 
what we are both doing, because we both know that if conflict 
breaks out on the Korean Peninsula then we are going to have to 
get the Americans off of there.
    The numbers are staggering, right? I mean, estimates say 
there are 200,000-plus Americans, not military, but Americans 
who live and work in South Korea. And then on top of that, you 
have a million Chinese that live and work on the Korean 
Peninsula, 60,000 Japanese, and on and on and on. So our 
friends, allies, partners, and others also have a vested 
interest in the evacuation of noncombatants should war break 
out on the peninsula.
    Mr. Brown. Thank you, Admiral Harris.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Admiral, you just hit on two of the issues that I want to 
talk with you about. One of them is ISR. Every commander that 
we talk with wants more ISR and more dependable ISR.
    I am very concerned, especially after reading your 
testimony and others, that as the Department becomes more 
dependent on space and our adversaries--we certainly accept 
space as a contested environment. And your testimony says, 
``Our adversaries continue to develop means to deny our space-
enabled capabilities . . . broad and robust array of counter-
space capabilities, which include direct-ascent anti-satellite 
missiles, co-orbital anti-satellite systems.'' You talk about 
their development and the ability to jam our satellite 
communications and PNT [position, navigation, and timing] 
jammers.
    The Department, the Air Force has recently proposed to not 
recapitalize the JSTARS [Joint Surveillance Target Attack Radar 
System] platform. And I am concerned that we are becoming too 
dependent on space and that there will be a lack of redundancy 
if we get rid of the systems that we have today that work, in 
hopes of a system that might or might not work, and that 
somebody may be able to find a way to deny our ability to use 
that system.
    Could you speak to the issues of the vulnerabilities in 
becoming too dependent on space and the need for redundancy in 
ISR platforms?
    Admiral Harris. Thanks, sir.
    I think, as a nation, over the past several decades, we 
have viewed space as a peaceful place, and we have been led 
astray by viewing space as some kind of a fuzzy panda bear 
thing.
    I think the Chinese, on the other hand, the Russians, and 
others, they have viewed space as the ultimate high ground, and 
they are preparing for battle in space. And we are just now 
coming to the realization that we are going to have to change 
our view of space, that it is a place of importance in terms of 
battlefield dominance.
    So, you know, I am advocating that we change that view of 
space and what we need to do in order to ensure that we 
maintain a level of dominance in space, that we can have access 
to the tools that we have put up there to do the ISR and other 
things.
    Mr. Scott. I hope we continue the development of space as 
well. I am just concerned that if we get rid of systems that we 
know currently work and somebody has more advancements in space 
than we have, then we could be left without the ISR platforms. 
And I hope that we will continue both the development of 
current ISR platforms as well as additional space-based 
platforms.
    I want to mention one other thing, and then I will yield 
the remainder of my time. I was in Djibouti not too long ago. 
And as we talk about the Chinese, the one thing that surprised 
me the most on that trip and that sticks in my mind is a 
hospital ship parked in Djibouti. And not only are they 
actually--in the past, they have helped to make the lives of 
the leaders of countries better, but now they are actually 
trying to win the hearts and minds of the people of the 
country. So that seems to be a marked change.
    I hope that, as we have the [USNS] Comfort and the Mercy, 
that as we continue to rebuild the Navy, that we will look at 
other ships like them as well.
    Thank you for your service, and maybe I will come see you 
in Australia.
    I yield.
    The Chairman. Mrs. Murphy.
    Mrs. Murphy. Thank you, Admiral Harris, for being here. I 
just wanted to add my congratulations to my colleagues'. 
Congratulations to you for your selection as Ambassador to 
Australia.
    You know, based on my experience in a prior life working on 
OSD [Office of the Secretary of Defense] Policy, Southeast Asia 
team, as well as out at the Pacific Command, and also as you 
highlighted in your response to Mrs. Hartzler's question, 
Australia is an incredibly important ally. And I am so grateful 
that the relationship with this important ally will be in very 
good hands with you out there.
    And so thank you for your service and your willingness to 
continue to serve this country.
    Speaking about allies, you know, in order for us to improve 
stability in the Asia-Pacific AOR [area of responsibility], we 
really focus on promoting security cooperation activities with 
our allies and partners in the region. And, as you know, 
section 333 of the fiscal year 2017 NDAA consolidated several 
security cooperation authorities into a new, broader, global 
train and equip authority.
    Can you give us some detail about how PACOM is looking 
strategically at its security cooperation programming under 
this new section 333 authority?
    Admiral Harris. Sure. I am excited about what 333 does and 
the fact that it consolidates many of the disparate programs 
that we have before. So we are getting after how to best 
utilize that authority now throughout the PACOM staff and our 
components.
    I am also encouraged by the Indo-Asia-Pacific Stability 
Initiative and what that gives me in terms of flexibility to 
deal with our partners and friends in the region.
    And, finally, there is the MSI, the Maritime Security 
Initiative, which has been in place now for 2 years, and we are 
in the third year now. And that is about a $500 million 
program, roughly. You know, it was roughly $50 million, $50 
million, and then $100 million, $100 million, $100 million. So 
about $435 million, I guess.
    And these programs are important. They are important in our 
ability to deal with the needs of our friends and partners in 
the region to improve their capacity. And I think it is 
important. So I am grateful for that.
    I would like to see increased funding in IMET, 
international military education and training, for some of 
those countries that we have put IMET on hold. I think it is 
important that we resource IMET so that we can then train the 
leaders of these militaries in the United States, so they can 
see democracy in action, so they can control their military in 
action on a daily basis.
    Mrs. Murphy. I am glad you raised IMET. I think back to our 
relationship with Indonesia, and there was a time where we 
weren't doing IMET, and we lost almost a generation of 
relationships between our senior military folks and our 
counterparts in Indonesia. So I appreciate you raising that.
    In your written testimony, you said, ``National power and 
security depend on the ability to operate securely in and 
through cyberspace.'' I am sure you would agree that, in order 
to fight and win future wars in the cyber domain, we have to 
elevate our cyber training, cyber preparedness, and capacity 
building as part of our security cooperation activities.
    How, specifically, is PACOM incorporating cybersecurity and 
cyber training ranges into your train and equip planning for 
fiscal year 2019?
    Admiral Harris. Quite a bit. And we have formed at PACOM 
the Joint Cyber Center. We have operational planning teams that 
are working with U.S. Cyber Command to get after the challenges 
that are resident in the domain.
    Mrs. Murphy. Great. Well, I appreciate that response.
    And, also, just as you consider planning for fiscal year 
2019 train and equip, I just want to emphasize that there has 
been strong congressional support for establishing a persistent 
cyber training environment that could provide deployable cyber 
training capability in the future. And I would just encourage 
you to continue to incorporate these new cyber training 
capabilities into your planning.
    Thank you.
    Admiral Harris. Thank you.
    Mrs. Murphy. I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    Great to see you, Admiral Harris.
    I wanted to focus on cyber and information warfare and 
information operations.
    So, first, I would be interested in an update as to our 
engagement with South Korea in regional confidence-building 
measures and capacity regarding cyber capability to counter not 
only the North Korean threat but also the threat from China.
    Admiral Harris. So I work with USFK [United States Forces 
Korea], General Brooks and his team, and with Admiral Rogers 
and his team for cyber capacity in Korea, for their ability to 
counter the threat from North Korea.
    I think North Korea is a major cyber actor, and the work 
that we do, both on the peninsula and off the peninsula, that 
work is critical as we get after the threat from North Korea, 
as well as, you know, China and Russia and all that. But North 
Korea is a major cyber actor.
    Ms. Stefanik. And how do we work with our allies most 
effectively in terms of information sharing when it comes to 
countering North Korea's cyber activities?
    Admiral Harris. Yeah. So, by sharing that information and 
sharing our operations. But we are limited, in many cases, by 
clearance issues with our allies and our partners and friends. 
So each one is different, each level of access is different, 
and we have to have that view toward maximizing the training 
that we can do with each one.
    Ms. Stefanik. And then shifting to information warfare. It 
is the same question: What, specifically, are we doing to 
counter Chinese and North Korean information warfare and 
propaganda efforts? How are we working with our allies in the 
Asia-Pacific? And who is the lead within the DOD on 
coordinating these efforts?
    Admiral Harris. In information warfare, we work through the 
and with the Joint Staff, the J-39 team in the Joint Staff, and 
at OSD in order to have a unified view of information warfare.
    I think China is using its considerable resources and the 
platform that is China to challenge us in the information 
domain. You know, an earlier question about the Confucius 
Institutes and things like that.
    Across the United States, you know, and in other countries, 
you can see the impact of a strategic view of information 
warfare which China has. And I am not convinced today that the 
United States has that unified strategic view of information 
warfare across our whole of government.
    Ms. Stefanik. So what steps do we need to take within the 
DOD? Because I think before we even tackle the whole-of-
government approach, I think making sure that DOD is focused on 
this, not just in terms of countering Chinese propaganda, North 
Korea propaganda, but propaganda when it comes to violent 
extremist groups and terrorist organizations--what steps do we 
need to take to ensure that DOD is focused on this, as they 
should be?
    Admiral Harris. Well, one is the training internal to DOD. 
And one involves those authorities which Admiral Rogers needs, 
and then he can delegate some of those authorities to the 
combatant commanders. But without those authorities to do 
offensive cyber operations, I think we are limited.
    Ms. Stefanik. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman.
    Thank you, Admiral, for being here. It is quite an honor 
that I get to be in this position to talk to you. And I look 
forward to hearing about your continued service to this 
country. Thank you.
    It was alluded to briefly earlier in one of the questions, 
and that was about the major incidents that occurred with our 
Navy ships last year. I guess there were 4 major ones in 2017, 
2 of which led to the deaths of 17 soldiers--more than the 
deaths of our service members in Afghanistan last year as well.
    If you could, just provide us with a brief summary of the 
findings about those events as well as the steps that need to 
be taken in order to prevent those types of events in the 
future.
    Admiral Harris. So there were two major investigatory 
reviews besides the ones that focused just on the incidents 
themselves. There was the comprehensive review led by Admiral 
Davidson, the U.S. Fleet Forces Command commander. And there 
was the Secretary of the Navy's strategic review, strategic 
readiness review, which was directed by the Secretary of the 
Navy and led by Admiral Gary Roughead, the former Chief of 
Naval Operations.
    And those reviews echoed the findings of the actual 
investigations of the incidents themselves, what I call inside 
the skin of the ship. It reflected a negligence on the parts of 
the crews of the ships and the commanding officers.
    I think that accountability was properly applied by the 
Navy in this throughout the chain of command of the Navy in 
holding the right level of accountability for those incidents.
    At the end of the day, it was about training. Tactically, 
it was about training and leadership and seamanship inside the 
skins of those ships, in my opinion.
    Mr. Panetta. Okay. Great. Thank you. Appreciate that.
    In regards to the South China Sea, that was kind of the 
flavor of the month for a while. Everybody was focused on that. 
And North Korea came about, and now the focus seems to be on 
that. But in regards to China's involvement there, can you 
elaborate on if we are continuing to focus on that and how?
    Admiral Harris. So I think that we can walk and chew gum at 
the same time. You know, we can think about North Korea and the 
South China Sea at the same time.
    I believe that, in the past couple years, I have focused on 
China's reclamation activities. This past year, we have seen 
them consolidate those reclamation activities in--what I call 
they have built vertically.
    So, in the South China Sea--and I will have some pictures, 
photographs for the closed session. But we have seen them build 
vertically and dramatically in the South China Sea on those 
seven reclaimed features that I call seven new bases in the 
South China Sea, to include aircraft hangars, barracks 
facilities, radar facilities, weapon emplacements, 10,000-foot 
runways--there are three of them down there--and all of that. 
So they now have seven new military bases in the South China 
Sea.
    Mr. Panetta. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Admiral. I appreciate you being here, 
and I appreciate the great job that PACOM is doing.
    I want to follow up on a question that Mr. Conaway asked. 
He was talking about the long-term security challenges in our 
country with investments and talking about the U.S. 
technological advantages relative to China.
    A followup that I have on that is, do you have specific 
concerns that real estate transactions either by Chinese state-
owned enterprises or perhaps other interests under a false flag 
could create vulnerabilities to our bases?
    Admiral Harris. I do, Congressman. I think that, you know, 
each case needs to be looked at on its own merits, but when 
China buys something adjacent to one of our training ranges or 
intelligence facilities or the like, you know, I think it bears 
looking into whether that purchase is for the right reasons or 
for nefarious reasons.
    Mr. Bacon. What are your thoughts on the recently 
introduced legislation known as the Foreign Investment Risk 
Review Modernization Act, FIRRMA, of 2017?
    Admiral Harris. I would have mentioned that earlier if I 
could have remembered what that acronym stood for. I am in 
favor of FIRRMA, and I loosely refer to it as CFIUS 2.0. But I 
am in favor of it. I wrote a letter to Senator Cornyn 
supporting that.
    Mr. Bacon. And, sir, referencing Taiwan, do you think we 
have done an adequate job communicating our commitment to the 
defense of Taiwan and our support of this democracy of the 
neighbor, China, there, that they respect free enterprise and 
individual freedoms? I worry about if we are not doing it 
enough.
    Admiral Harris. Yeah. I am satisfied with where we are, but 
we need to continue to stay with it, right?
    I mean, so my obligations to Taiwan, unlike the other 
countries in the region, I am obligated by law to think about 
the defense of Taiwan and to help them in their legitimate 
defensive needs under the Taiwan Relations Act. I get it, and I 
take my responsibilities under the Taiwan Relations Act 
seriously. So my job is to help Taiwan improve its legitimate 
defensive needs in the 21st century.
    Mr. Bacon. Well, I appreciate you doing that. Some of our 
officials, I find, tone down that support, I think, out of fear 
of how China will perceive it. But I think that communicates 
weakness towards our commitment to Taiwan. And I think we need 
to do just the opposite, make clear that we are standing by 
them, folks who have embraced democracy, free enterprise, and 
the respect to freedom. And I think to do otherwise sends a 
mixed signal to China, and that is not necessarily healthy.
    Admiral Harris. Yeah. I agree with you completely.
    Mr. Bacon. Finally, I just want to say thank you again for 
your service. We look forward to having a great ambassador in 
Australia. Thank you.
    Admiral Harris. Thank you, sir, very much.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Aloha, Admiral. And I join my colleague Congresswoman 
Gabbard in a great ``mahalo'' from the people of Hawaii, not 
only for your service but for your wife's as well.
    I am going to call this 56-page--I am not sure people 
realize that, but your statement is 56 pages. I am going to 
call it ``The Admiral Harris Strategy on Indo-Pacific.'' And I 
hope that your successor would follow it, if he can get through 
the 56 pages.
    Having said that, let me--there is one thing that you start 
off with that also the National Defense Strategy starts off 
with. And I am trying to understand exactly what the premise--
because I find that it is the premise of both what you are 
saying as well as the NDS is saying.
    And that is this concept of free and open international 
order, which seems to be stating that, after World War II, that 
sort of was the rule of what governed, especially in the Indo-
Pacific area, and that what is happening now is China and 
Russia are undercutting both of that. And you seem to say that 
we have to get back to the free and open international order, 
because that is what is really going to promote this prosperity 
and the economic development, everything that we want, that our 
presence is there.
    And there is also reference to this concept of the rules of 
the road, which I also believe is a function of this free and 
open international order.
    So my question to you is twofold. One is, what is this free 
and open international order?
    And, secondly, hidden in all of that, or maybe not so 
hidden in all of that, is this whole concept that, in order to 
be successful or to be effective, you must be able to prevent 
war but you must be able to win war. So one of your priorities 
is lethality--in other words, the ability to do the defense.
    So I was wondering if you could tie all of that for me. 
Because I think that, in my opinion, serves as the basis of 
what your 56 pages is getting at.
    And, by the way, omedeto for your appointment.
    Admiral Harris. Arigato.
    So I think the original concept of the rules-based 
international order actually predated the end of World War II. 
It started out in the Atlantic Charter discussions, and then it 
became the Atlantic Charter, then you had the United Nations, 
then you had NATO [North Atlantic Treaty Organization], and you 
had all these things. And some of the organs of the rules-based 
international order were the World Bank, International Monetary 
Fund, and those enforcement mechanisms that allowed states to 
prosper under a set of rules where they would know what other 
states were--the rules they were following.
    And I think no state prospered more in the decades after 
World War II than China. I mean, if you see where China is 
today, that is due, in my view, in my opinion, that is due to 
this rules-based international order.
    And no one has advocated for China's involvement and 
inclusion in that more than United States. It was United States 
that supported China's entry in the World Trade Organization 
and on and on and on.
    And now, though, we find, I think, that rules-based 
international order under pressure. And it is under pressure by 
principally China and Russia, two nations that I call 
revisionist powers.
    So I think its behooves us to go back to the source, to go 
back to this rules-based international order that has done well 
by so many countries, including China and including the United 
States, and continue to advocate for the importance of that 
system.
    I think, as far as the idea of deterrence and winning wars, 
you know, I am a military guy, and I think it is important that 
you must plan and resource to win a war while at the same time 
you work to prevent it. But at the end of the day, you know, 
the ability to wage war, I think, is important, or else then 
you become a paper tiger.
    Ms. Hanabusa. Thank you. And I think that is where some of 
us feel that we are schizophrenic. But we have to be able to do 
both. Thank you.
    Mr. Chair, I yield back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    And, Admiral, join me, as well, to the growing chorus today 
of those thanking you for your service not just to our country 
but to the greatest branch of the greatest military in the 
world.
    Everybody catch that? All right.
    I wonder if you could comment a little bit on whether or 
not you believe the torpedo threat within the Indo-Pacific 
region has decreased.
    Admiral Harris. No, it hasn't decreased at all. As China 
and Russia, primarily, as their submarine capability has 
increased, then the threat from torpedos as well as other 
weapons systems that are resident on those submarines 
increases.
    And we also see an increase in capability of North Korean 
submarines. And that is of immediate concern, given the 
conditions on the peninsula now.
    Mr. Banks. Then why in the budget that was released this 
week do we see a drastic cut to Surface Ship Torpedo Defense 
[SSTD], which 5 years ago was funded at approximately $84 
million and, in the budget request this year, down to $8.59 
million in the request? Why would we not assume then that there 
has been a significant decrease in the threat?
    Admiral Harris. Congressman, I don't know. I mean, that is 
a Navy part of that submission, and I just don't know.
    Mr. Banks. But you just said a moment ago the threat 
certainly hasn't diminished----
    Admiral Harris. That is correct. Yeah. I do not believe the 
threat has diminished. In fact, I believe the threat is greater 
now than it has been. Why the Navy decided to cut that in its 
budget submission, I don't know.
    Mr. Banks. Can you comment on SSTD and the importance?
    Admiral Harris. I don't----
    Mr. Banks. Surface Ship Torpedo Defense.
    Admiral Harris. Right. If you are on a ship, I think it is 
probably one of the things you are thinking about all the time. 
I think it is very important.
    Mr. Banks. Okay. That is all I have. Thank you very much.
    I yield back.
    Admiral Harris. All right.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Admiral, I have a couple questions regarding freedom of 
navigation and freedom-of-navigation operations specifically 
dealing with the blockchain islands that China is trying to do.
    Are we doing anything in addition to, you know, some of the 
operations we are doing right now in terms of sending our ships 
near the islands, are we doing anything else to basically try 
to test or push or even prevent the Chinese goal of the Nine-
Dash Line?
    Admiral Harris. Yeah. On the idea of the Nine-Dash Line 
itself, you know, we are talking about it in the public domain, 
not just me but, you know, we are all talking about the fact 
that the tribunal that was charged to look at the case in 2016 
that was raised by the Philippines but against China, the 
outcome of that case ruled the Nine-Dash Line to be 
illegitimate.
    Mr. Gallego. Right.
    Admiral Harris. And so we talk about it in international 
venues. And one of the things that I think is important to do 
is to continue to talk about it and get other partner nations 
to also talk about the illegitimacy of the Nine-Dash Line 
claim.
    And that Nine-Dash Line claim affects Malaysia----
    Mr. Gallego. Right.
    Admiral Harris [continuing]. The Philippines, and all the 
rest.
    What we do in the military sense is we continue to operate 
in the South China Sea. We continue to do freedom-of-navigation 
operations to demonstrate that we will fly, sail, or operate 
wherever international law will allow us.
    And we are encouraging our friends, allies, and partners to 
do the same. If they are not willing to do freedom-of-
navigation operations to the level that we do, that is up to 
them. But if they are operating in the South China Sea, that 
demonstrates to all the world, really, that the South China Sea 
is, in fact, international water space and is not China's 
simply because it has ``China'' in its name.
    Mr. Gallego. Have there been any other thoughts or plans, 
for example, to further push the idea of how delegitimate their 
claims are? For example, sending naval science teams or science 
teams of other flag-bearing countries to these atolls or lands. 
Because, ostensibly speaking, if these islands don't belong to 
China, then they should not be opposed to, you know, 
nonmilitary entities actually, you know, doing some research 
there.
    Admiral Harris. There has been some thought of that, but we 
run up against policy and international law. You know, if one 
of these islands, for example, is a high-tide elevation--you 
know, I don't want to get too pedantic about it, but if it is a 
high-tide elevation, then regardless of who owns it or if 
anyone owns it, it has a 12-mile limit around it. And so that 
becomes problematic if you are going to do scientific research. 
And we don't want to find ourselves in the position of asking 
China's permission to do the scientific research----
    Mr. Gallego. Right.
    Admiral Harris [continuing]. Because then that----
    Mr. Gallego. Because that legitimizes it.
    Admiral Harris. That is correct.
    Mr. Gallego. To back up on that, Admiral, so you are 
saying--I guess I am confused, because, from what I understand, 
the international order has so far said that these islands are 
not recognized as Chinese islands. In my mind, that means then 
we should be able or our allies should be able to bring at 
least nonmilitary assets to these islands, such as testing or 
whatever it is.
    And what you are saying is they still have some level of 
sovereignty that is questionable within the international 
order?
    Admiral Harris. Right. Yeah. And so now I am going to be 
drawn into the pedantic part of this, but----
    Mr. Gallego. Right.
    Admiral Harris [continuing]. If it is a high-tide 
elevation, that means if it sticks up above the water at high 
tide, then that means it has territoriality to the feature, you 
know, no matter who owns it. And we say that China does not own 
it, but it still has territoriality. So we are going to follow 
that 12-mile limit around it.
    If it is a low-tide elevation, in other words it disappears 
at high tide, then it has no territoriality associated with it 
at all.
    Mr. Gallego. I guess I am very confused. This is like a 
very chicken-or-egg thing. How can China have territoriality 
over these manmade islands?
    Admiral Harris. They don't, other than the reality is that 
they claim it.
    Mr. Gallego. Right.
    Admiral Harris. So they claim it as theirs. And so they say 
that the territoriality is imparted to Beijing.
    Mr. Gallego. Right.
    Admiral Harris. And we say for those high-tide elevations 
that China has no territoriality over it. But it rates its own 
territoriality. So we don't give it--we give it the 12-mile 
limit.
    If it is a low-tide elevation so that it disappears at high 
tide, then it has no territoriality at all, and we can go right 
up to it--and we do--under freedom-of-navigation operations.
    Mr. Gallego. I just feel--and just reclaiming my time and 
finish up--I just feel that, you know, it is in the future 
interests of this country and our allies to make sure that we 
are constantly pushing on the Nine-Dash Line establishment, 
including with these atolls overseas.
    Admiral Harris. And I agree with you. The Nine-Dash Line 
covers all--almost all of the South China Sea. So China claims 
the Nine-Dash Line and every feature in it.
    Mr. Gallego. I see it on the map, so--yeah. Thank you, 
Admiral.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    And, Admiral, as already has been said so many times, thank 
you for your service, and congratulations on your next 
assignment. It is a great honor to have you here. And, in fact, 
it is a great honor to virtually be sitting at the table with 
you here. I feel like we can shake hands.
    But I want to begin with the question that Mr. Scott asked 
a little while ago. I didn't really catch the answer. Do you 
believe we are, in your opinion, leaving ourselves more 
vulnerable if we forsake the JSTAR program for other platforms, 
ISR platforms?
    Admiral Harris. Yeah, so I support the Air Force's view on 
the JSTARS that it can be replaced. My requirement is the 
requirement for the capability, and I tend to be platform-
agnostic on all of these things.
    As a joint commander, you know, I state the requirement for 
the capability and ask the services to provide that capability. 
If they choose to provide it on a large-frame airplane or some 
other way, then that is the purview of the services, and that 
is the system under which you all have created for us, and I am 
okay with that.
    So if the Air Force says the JSTARS platform is obsolete or 
trending toward obsolescence and they have another way to meet 
that capability, I am okay with that.
    Mr. Hice. I think all of us would be, if that capability is 
tested and proven before just forsaking that which we already 
know works effectively. And that certainly is an area of 
concern.
    You mentioned a while ago good news, bad news--good news 
that, in your opinion, the U.S. is rising in power, but the bad 
news that China is outpacing us right now.
    Of the next-generation military technologies involved with 
China right now, be it hypersonic missiles or directed energy 
weapons, autonomous weapons or space-based, which concerns you 
the most?
    Admiral Harris. Today, Congressman, I am concerned about 
hypersonics because of where they are in that development. You 
know, some of the other areas you mentioned, directed energy 
and space-based weapons, I think that they are not as far along 
as they are--analogous terms--as they are with hypersonics. I 
worry about hypersonics today.
    Mr. Hice. Okay. With that statement, then, would you agree 
that that would be the area of most importance for us in terms 
of our keeping a technological edge? Or where would you say we 
need to focus?
    Admiral Harris. I think we need to continue to focus on 
maintaining the technological and asymmetric edge in undersea 
warfare. I think that is the most important thing.
    That said, you know, here comes the hypersonic threat from 
China, and we need to start thinking about and resourcing our 
defense against hypersonic weapons and our own offensive 
hypersonic weapons.
    But I think that our advantage and the capability that is 
resonant in the undersea warfare domain is so significant and 
is so pressurized now by China's development that we have to 
continue to resource that.
    Mr. Hice. Do you believe we are properly resourced?
    Admiral Harris. I do not. I mean, I have said before that I 
don't have enough--just the submarine numbers alone, I don't 
have what I need.
    Mr. Hice. Okay. You mentioned a while ago, too, about the 
cyber domain. Do you believe we are adequately prepared to deal 
with whatever attacks or threats may come from cyber?
    Admiral Harris. I don't. But I will defer to Admiral Rogers 
and U.S. Cyber Command, and that is his job. But my sense is 
that we need to continue to develop that capability.
    Mr. Hice. Okay. Thank you again, Admiral.
    And, with that, I yield back, Mr. Chairman.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And very good to see you, Admiral. And thank you so much 
for your service. I think everyone has certainly acknowledged 
that. I know that we all appreciate your great openness 
whenever there is a CODEL [congressional delegation] visit to 
PACOM, and you certainly represented that.
    I also just wanted to say how pleased I am about your 
nomination and, I think, your strong statement earlier about 
our diplomatic missions need to be supported as much 
budgetarily as our defense missions as well. You are going to 
be a strong voice in that, and I appreciate it.
    You know, I know that nuclear weapons are not your direct 
responsibility, but they do certainly have a direct impact on 
your area of responsibility as it exists today.
    The NPR calls for modernizing and expanding our nuclear 
architecture through sea-based-launch cruise missiles and low-
yield sea ballistic missiles, therefore lowering the threshold 
for employing nuclear weapons.
    So I am just wondering how you weigh this nuclear 
modernization with the priorities that you have outlined today. 
Do you feel that you can address that?
    Admiral Harris. I do. And I think that those elements that 
are in the Nuclear Posture Review are critical to PACOM because 
they are critical to the Nation.
    I think the idea of modernizing the triad is essential. 
Perhaps one of the most important outcomes of the Nuclear 
Posture Review is acknowledgement and affirmation that we need 
the triad. And then the next step, of course, is to modernize 
it. So I think that is one of those nuances in there that is so 
important.
    I think the small-yield submarine-launched weapons 
increases our capability. And it remains to be seen, I think, 
what the command and control of that kind of a weapon would be, 
and the sea-launched nuclear-capable cruise missile. So we are 
going to have to think about that, because we haven't had to 
think about that in a while. I haven't had to think about it at 
all.
    But I think the sea-launched cruise missile, nuclear-
capable, sounds like a TLAM-N [Tomahawk Land Attack Missile-
Nuclear], which, you know, was extant in a lot of my career 
during the Cold War. We don't have that now. So the command and 
control of those tactical kinds of weapons, I think we are 
going to have to explore that. Whether that is given to the 
combatant commander in general or whether it is retained by 
Strategic Command, you know, I don't know how that is going to 
work.
    But the fact is that I think that that increases our 
capability and decreases the chance of an accidental nuclear 
war by giving us those capabilities.
    Mrs. Davis. Is it fair to say that there are risks 
certainly associated with this strategy as well?
    Admiral Harris. I think the risk is by not adhering to the 
strategy.
    Mrs. Davis. Uh-huh. Uh-huh. How might China perceive the 
renewed U.S.-Russian modernization?
    Admiral Harris. I can almost guarantee you that they won't 
like it. But that is no reason not to do it. You know, if we 
didn't do anything that China didn't like, then we would be 
nowhere.
    Mrs. Davis. Right.
    Admiral Harris. So it seems like no matter what we do in a 
legitimate defensive situation--THAAD on the peninsula, for 
example--they are going to object to. But that doesn't mean 
that we shouldn't go ahead and do it, because it is the right 
thing to do, in my view.
    Mrs. Davis. Thank you.
    I had one other question, Mr. Chairman, but I know we have 
a few people that are waiting, so I will go ahead and yield 
back. Thank you.
    The Chairman. Mr. Gallagher.
    Mr. Gallagher. Thank you, Admiral. Thank you also for 
making what I am sure is the first reference to Sir John Monash 
and the Battle of Hamel in HASC [House Armed Services 
Committee] history. I look forward to working with you in your 
new role.
    You mentioned, I believe in an exchange with Mr. Wittman 
earlier, you brought up INF. And to put a finer point on it, 
given China's investment in missiles that you have referenced, 
as well as their overall modernization, do you believe INF 
restrictions harm our conventional deterrence to the point that 
we may not be able to uphold our commitments in the Pacific 
into the 2020s? Or, put differently, INF, while critical in 
Europe, is it hamstringing us in Asia?
    Admiral Harris. Thanks for the question.
    I wouldn't go as far as the beginning part of your 
question, but I do agree that it hamstrings me in the Pacific. 
Because the weapons that I have to bring to bear are outmatched 
by the ground-based weapons that China can bring to bear 
because they are not a signatory to INF.
    So the way ahead, I am not the expert on that. I have 
highlighted the deficiencies in my capability in the Pacific 
because of INF. And I know that it is--at least I think it is 
being studied at the right levels to figure out the way ahead. 
But I view INF as self-limiting to the United States. And, to 
me, INF is not about Russia as it is about China.
    Mr. Gallagher. But given your perspective as a theater 
commander there on the ground, I would just be curious of your 
thoughts, are there things we should be exploring on the 
committee? For example, you could imagine increasing firing 
rates, capacity, range of existing systems. You could initiate 
R&D [research and development] for noncompliant systems. Or you 
could develop systems with an INF-compliant boost range but a 
glide range that extends. And I just would love your thoughts 
on what we should explore in this case.
    Admiral Harris. Yeah, I think that we could be creative in 
our approach to defining weapons. So if it has more boost than 
glide, then it is not an airplane, then it is probably INF-
compliant, so we ought to think about it in that regard.
    You know, the INF Treaty itself doesn't limit the R&D, so 
we ought to start the R&D and then decide later on whether we 
are going to field the weapon or not. But we don't want to 
start later on with the R&D, or else we have lost all that 
time.
    Of course, the other argument is we could waste the money. 
And that is why it is a decision that has to be taken not only 
at the department level but at you-all's level.
    Mr. Gallagher. Great. I appreciate your candor, Admiral. 
That is all I have.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Admiral, thank you again for your service to the 
country. We look forward to your new role, your new diplomatic 
role in Australia.
    As we look at China and Russia turning the levers that you 
have indicated today could help us with the North Koreans, are 
there any things that you see that they are not doing that we 
wish that they were doing?
    Admiral Harris. That is a little bit open-ended, but I 
would like for them to do more. I think that they have the 
capacity to do more. I think if 90 percent of your trade comes 
from China, then China then wields a powerful lever. I think 
their coal----
    Mr. Gaetz. Is it that we want them to better enforce the 
posture that they have taken, or is it that we would like them 
to accelerate their----
    Admiral Harris. I would like them to do both. I would like 
them especially to accelerate. You know, we talk oil and coal. 
I mean, they have a powerful lever there. Food and the 
guestworker program and all that revenue that goes into the 
regime----
    Mr. Gaetz. China occasionally takes the position that, 
while the government does not sanction some of those activities 
that yield humans moving from North Korea into China for work 
or other assets like energy assets moving from China into North 
Korea or vice versa, that just as there are nongovernment 
actors in the United States that can do things outside of the 
law, there are nongovernment actors in China that can do the 
same.
    Is that a realistic claim that they are making, or do they 
have sufficient command and control to enforce broader 
sanctions?
    Admiral Harris. They are a communist country. I think they 
have sufficient command and control.
    Mr. Gaetz. So that would seem to indicate that the claims 
that, well, some of this activity occurs beyond our gaze--you 
would question those claims.
    Admiral Harris. I would question those claims.
    Mr. Gaetz. When we look at success in the event of some 
sort of kinetic conflict, it appears clear to us--and I thank 
the chairman for a really provocative and insightful day 
yesterday on these questions--we look at the importance of what 
capabilities our allies bring to bear.
    Could you highlight some of the important capabilities that 
our allies in the region would need to bring to bear in the 
event of a kinetic conflict?
    Admiral Harris. Well, you know, I don't want to speak for 
the allies in terms of kinetic conflicts, in the sense that 
they are going to have to make those decisions.
    But the capabilities that Japan and Japan's Self-Defense 
Forces, the Koreans and the Korean Armed Forces have in that 
theater are significant, in terms of the ROK [Republic of 
Korea] Army is an incredible fighting force. The Japan 
ballistic missile systems, their ships and their aircraft are 
first-rate.
    And then you go and you think about Australia and all of 
their capabilities. You look at Singapore as a partner, and 
what they provide us as a platform are significant.
    So these are important friends, allies, and partners that 
we all work hard to maintain those relationships.
    Mr. Gaetz. In the event that conflict does go kinetic on 
the Korean Peninsula, we will likely have to launch munitions 
over water that will then land on land, correct?
    Admiral Harris. Correct.
    Mr. Gaetz. And, to my knowledge, the only place that the 
Navy or the Air Force are currently testing munitions that are 
launched over water and land on land is in the Gulf Test Range 
in the eastern Gulf of Mexico. Am I right about that, or are 
there other places where we do that testing and evaluation?
    Admiral Harris. We are testing strikes at Nellis, for 
example, Nellis Air Force Base, where we do a lot of our 
command and control exercises that result in----
    Mr. Gaetz. But for next-gen weapons systems.
    Admiral Harris. Yeah. I don't know.
    Mr. Gaetz. Okay. Very well.
    You would agree that, then, looking beyond our current 
moment to a 30-, 50-year timeframe, do you believe that we 
would win any type of kinetic conflict with China on the 
airframe alone, or would we require development in our 
munitions capabilities?
    Admiral Harris. We will clearly require development in our 
munitions capabilities. But if I am around in 30 or 40 or 50 
years, I will be the grayest owl you have ever seen.
    Mr. Gaetz. Well, I know that so much of your service has 
been dedicated to ensuring that we win well beyond the time 
that those of us who are here are still around.
    And I would just merely make mention, Mr. Chairman, that I 
believe we will not win on the airframe alone. I think the 
munitions are going to be essential.
    I agree with your assessment, Admiral. And that is why it 
is so important that we preserve the assets that allow us to 
test and develop those next-generation munitions.
    I yield back.
    The Chairman. Does the gentlelady from Arizona have a 
question for open session?
    The gentlelady is recognized for 5 minutes or less.
    Ms. McSally. Everybody else got their turn, Mr. Chairman.
    Thank you, Admiral Harris. Thanks so much for your years of 
service. You are a tremendous patriot, and we really appreciate 
all your sacrifice.
    Having been in the military myself, you know, we spent a 
lot of time also focusing on information warfare and how our 
enemies use that against us as a domain.
    I was cringing with Kim Jong-un's sister at the Olympics 
and how not only she was received but also how she was treated 
by the, at best, naive media in the coverage of her. She is the 
head of the Department of Propaganda and Agitation and 
responsible, as part of this brutal regime, of the lack of 
human rights, the death and torture of many citizens. I mean, 
you know what this regime is like. And the fact that our media 
would play into this is just embarrassing and disgusting to me.
    And I just want your thoughts. I mean, you mentioned 
earlier in your testimony about you think his long game is the 
reunification under communist rule. What are your thoughts 
about the antics that they just played and the impact? Because 
it was just embarrassing to me.
    Admiral Harris. So, clearly, a charm offensive. And I think 
that it behooves us and our Korean allies not to be charmed----
    Ms. McSally. Yeah.
    Admiral Harris [continuing]. And to consider North Korea 
for the regime it is----
    Ms. McSally. Right.
    Admiral Harris [continuing]. And to deal with it on the 
basis of fact and not charm. I believe that General Brooks is 
ideally positioned to do that and that he views this charm 
offensive through clear eyes.
    Ms. McSally. But just the impact, though, on the media kind 
of playing into it, and how it basically looks like they were a 
tool of their information warfare and their propaganda 
campaign--again, naive at best. Is that fair?
    Admiral Harris. That is fair.
    Ms. McSally. Thank you, sir.
    With the $700 billion and $716 billion that we have now 
agreed to last week to infuse into our military, can you share 
what that means for PACOM, like, what that is going to be able 
to do from a readiness and a warfighting and a capability to 
address the many threats that you have to face?
    Admiral Harris. Yeah. Again, I will express my gratitude 
for that and the hopes that we will get the appropriation for 
that in the NDAA 2018 and then the next year.
    It gives us 2 years to plan. It gives us something we 
haven't had for a long time. You know, the day after tomorrow, 
Saturday, I will have been in command of PACOM for 1,000 days, 
and 433 of those will have been under a CR [continuing 
resolution].
    So this budget is terrific. I mean, this thing that you all 
have done, this bipartisan agreement, is outstanding. It helps 
me and it helps the joint force be able to plan and train and 
buy equipment that we need and start new starts and all of 
that.
    Ms. McSally. Can you translate that into, like, some 
specific warfighting capabilities, just for the American people 
to understand, like, what it means for those who are 
responsible to be ready to fight tonight on the Korean 
Peninsula, if needed, and dealing with all the other stuff, 
China, munitions, all that stuff? How does that really----
    Admiral Harris. Yeah. And so--well, among other things, MK-
48 torpedos, long-range antisurface missiles, training for our 
Air Force and Navy fighter pilots, significant things like that 
that we have had to--we have lost the opportunity over the last 
couple of years, that we will be able to recapture that.
    Ms. McSally. Great. Thanks. I was a strong ``yes'' on that 
specifically because of the impact that is going to have on our 
troops and those who serve with you. So thanks.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentlelady. That was a good way 
to end.
    Admiral, I have one request. Before you leave the military, 
if you could help coach other DOD witnesses to give clear, 
direct answers to questions, it would be a really good thing. 
And I appreciate your directness to all the questions you have 
gotten today.
    We will adjourn this open hearing and regather in about 5 
minutes upstairs in classified session.
    [Whereupon, at 12:18 p.m., the committee proceeded in 
closed session.]

    
=======================================================================

                            A P P E N D I X

                           February 14, 2018
                           
====================================================================

      
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2018

=======================================================================

   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 14, 2018

=======================================================================

   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 14, 2018

=======================================================================

      

                  QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Please describe the impact Counter America's 
Adversaries Through Sanctions Act (CAATSA) would have for U.S. ties in 
the Indo-Pacific region, specifically with India, Indonesia, and 
Vietnam. Please provide specific examples of PACOM efforts to 
strengthen relations with the affected countries and the potential 
implications CAATSA would have on those efforts.
    Admiral Harris. [The information is classified and retained in the 
committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. At this time, the United States and our allies rely 
heavily on China in the rare-earths market. What national security 
concerns do you have regarding China's dominance of the rare-earths 
market? In your opinion, should the U.S. focus more on building up our 
own production and refinement base to ensure independence from China? 
How can we work with our allies to secure independence from China in 
this regard?
    Admiral Harris. Rare earth minerals are neither rare nor hard to 
mine. These elements are used in high-end electronics and 
manufacturing. As the demand grows for faster and more advanced 
electronics, and for advanced process technologies (e.g., as high-end 
lasers, high-speed processors, catalysts, solid oxide fuel cells, 
batteries, etc.), the demand for rare earth minerals such as Yttrium, 
Erbium, and Neodynium will continue to grow. Similarly, as demand 
grows, so will supply and innovations to more efficiently mine and 
produce rare earth minerals.
    Although China exports around 90 percent of rare earth minerals 
globally, they do not have a monopoly. What they do have is a poorly-
governed, environmentally-damaged countryside full of illegal mines and 
toxic waste. And while China has dominated the rare earth minerals 
market since the mid-1990s, rare earth minerals are not unique to 
China. Rare earth minerals are currently mined in Australia, Canada, 
Greenland, India, Brazil, Thailand, Vietnam, Malaysia, and many other 
countries that we consider partners, allies, and reliable trade 
partners. Like many aspects of their economy, China currently has too 
much capacity in rare earths production and sells it at the lowest 
prices. Even China's mines are running at a loss and forced to contend 
with illegal mining and smuggling. The Chinese government plans to 
limit production by 2020, which will likely spur production elsewhere 
in the world, including the U.S.
    While the U.S. is currently not mining rare earth minerals, our 
allies and partners are, and we could if we wanted to when the price is 
right. When global prices in the rare earths market go up, I would 
expect production elsewhere in the world to go up, including the U.S.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
